<html>
<title> - HUMAN SPACEFLIGHT: THE SPACE SHUTTLE AND BEYOND</title>
<body><pre>[Senate Hearing 109-230]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-230
 
            HUMAN SPACEFLIGHT: THE SPACE SHUTTLE AND BEYOND

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 18, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                 U.S. GOVERNMENT PRINTING OFFICE

25-323                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




       5SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMint, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                 KAY BAILEY HUTCHISON, Texas, Chairman
TED STEVENS, Alaska                  BILL NELSON, Florida, Ranking
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               E. BENJAMIN NELSON, Nebraska
JOHN E. SUNUNU, New Hampshire        MARK PRYOR, Arkansas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 18, 2005.....................................     1
Statement of Senator Hutchison...................................     1
    Prepared statement...........................................     2
Statement of Senator Lott........................................     3
Statement of Senator Nelson......................................     2

                               Witnesses

Griffin, Dr. Michael D., Administrator, National Aeronautics and 
  Space 
  Administration.................................................     3
    Prepared statement...........................................     5
Horowitz, Dr. Scott J., Director, Space Transportation and 
  Exploration, ATK Thiokol, Inc..................................    23
    Prepared statement...........................................    24
Johnson-Freese, Dr. Joan, Chairman, Department of National 
  Security 
  Studies, Naval War College.....................................    18
    Prepared statement...........................................    19
McCulley, Michael J., President and CEO, United Space Alliance...    13
    Prepared statement...........................................    14
Li, Allen, Director, Acquisition and Sourcing Management, U.S. 
  Government Accountability Office...............................    34
    Prepared statement...........................................    36

                                Appendix

Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    45


            HUMAN SPACEFLIGHT: THE SPACE SHUTTLE AND BEYOND

                              ----------                              


                        WEDNESDAY, MAY 18, 2005

                               U.S. Senate,
                 Subcommittee on Science and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:47 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Kay Bailey 
Hutchison, Chairman of the Subcommittee, presiding.

        OPENING STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. I am starting because there is a 
possibility that at 11:30 we will have to break because of what 
we call the 2-hour rule being invoked. And therefore, I am 
going to jump right in with our first witness and want to 
welcome Dr. Griffin. We very much appreciate all that you have 
done in the very short time that you have been in place. 
Today's focus is going to be the Space Shuttle and how we are 
going to utilize it fully and go forward with a crew return 
vehicle. We are very concerned on this Committee, as we have 
made clear, and I know you are as well, about the current 
status of our ability to fly the Space Shuttle beyond Return to 
Flight, how long can we use it, and what your plans are to 
bring up the crew return vehicle.
    In addition, in the question period I want to say that I 
want to start talking about not only the crew return vehicle, 
which is, I know, in the top three priorities for NASA, but 
what we are planning to do with cargo, a capacity to take the 
payloads to and from space that we cannot take on the crew 
return vehicle.
    You have said to me straight out the Space Shuttle is 
flawed. The words are indelibly impressed on my mind from the 
last hearing. And therefore, I want to know how we are going to 
get equipment and repair-type tools up there, when we have a 
crew return vehicle, and where that stands in the priority 
list.
    It is essential that we learn from mistakes made in the 
past, as we develop a new generation of vehicles for human 
space flight. We do not have the luxury of time or resources or 
making a false start, as we add the new dimension of Moon, 
Mars, and beyond. So I hope that we can go one step beyond 
where you did in your hearing for confirmation about where you 
see the main priorities for NASA, which are Return to Flight, 
the Crew Return Vehicle, and the finishing of the Space 
Station.
    And, of course, as you know, Dr. Griffin, my fourth 
priority, but very high on the list and considered essential to 
me, is the science research at the Space Station going on a 
continuing basis rather than being delayed for the first three 
priorities.
    So with that, I will welcome my Ranking Member, Senator 
Nelson, who is our only senator who has been in space. And let 
me say I am glad you are here.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    I am pleased to welcome our witnesses here today for this hearing 
on Human Space Flight--The Space Shuttle and Beyond. I know you are all 
very busy people, and the Subcommittee appreciates your willingness to 
be here with us to discuss some very important issues for the future of 
human space flight.
    I am especially pleased to welcome Dr. Michael Griffin here, who is 
perhaps busier than all of us, as he continues to assume the helm of 
NASA, assemble his leadership team, and prepare to give the go-ahead 
for the Space Shuttle's return to flight.
    We begin the focus of today's hearing on the Space Shuttle, because 
that is this nation's only human space flight vehicle. The Space 
Shuttle continues to represent an incredibly valuable national asset. 
We all share, I'm sure, the great hope that it will return to flight in 
July as a safer, more capable vehicle than ever before.
    This hearing is not intended to delve into the near-term issues or 
the steps taken to prepare for Return to Flight. Rather, we hope to 
review the role of the Space Shuttle as representing an essential U.S. 
capability to fly humans and cargo into space and back to the Earth. We 
will hear about the current status of our ability to continue flying 
the Space Shuttle, and plans for its use after a successful Return to 
Flight. We expect to hear about the need to ensure that the United 
States has such a capability and can sustain human space flight into 
the future without a serious gap in our ability to do so. We hope to 
hear what steps are now being taken and will be taken in the future to 
develop a successor to the Space Shuttle in a manner that provides a 
smooth, uninterrupted transition from one U.S. human space flight 
capability to the next.
    With talk--and plans--to retire the Space Shuttle, we must 
carefully guard against the premature loss of either skilled expertise 
in the workforce or industrial capacity to support and sustain the 
Space Shuttle for however much longer it will fly. Members of our 
second panel will address these and other issues.
    It is essential that we learn from the mistakes made in past 
efforts to develop a new generation of vehicles for U.S. human 
spaceflight. We do not have the luxury of either time or resources to 
make another false start as we add the new dimension of the Moon, Mars 
and beyond to this nation's human spaceflight capability.
    This hearing is intended to set the stage for what will be the 
Subcommittee's ongoing efforts to monitor and ensure the success of 
U.S. efforts to sustain an effective, uninterrupted national human 
spaceflight capability.
    I look forward to our witnesses' testimony and their response to 
questions of the Subcommittee.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Madame Chairman. And I 
understand that it is possible that we are going to have to 
conclude this by 11:30. Is that correct?
    Senator Hutchison. That is correct.
    Senator Nelson. OK. Then I will just say, Dr. Griffin, in 
the interest of time, I think you have demonstrated 
extraordinary leadership. And you have only been on the job a 
month. But, of course, we knew that. That is why Senator 
Hutchison and I both encouraged your appointment and then your 
confirmation, once appointed. So we are very grateful. And I 
think that what you have done in trying to lessen the hiatus 
between the CEV and the end of the Space Shuttle is not only 
commendable, it is absolutely necessary, as well as you taking 
a fresh look at whether or not we can go and service Hubble. I 
thank you for that.
    And I will reserve my comments for questions.
    Senator Hutchison. Thank you, Senator Nelson.
    Senator Lott?

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Thank you, Senator Hutchison. And I am so 
pleased that you have taken over this Subcommittee 
Chairmanship. Your interest, your knowledge, and your energy 
will be very helpful.
    And I want to also recognize Dr. Griffin's good work 
already. I just sense a change already, which is pretty 
impressive. And I am wishing you the best. And we want to be 
partners with you in trying to get this very important agency 
up and running and doing the kind of job we know it can do.
    I know there will be lots of discussion about your plans to 
accelerate the Crew Exploration Vehicle acquisition and how 
NASA's other programs will be affected by the increased 
emphasis on space exploration. I look forward to working with 
you to achieve the former while making the latter more 
plausible.
    I also want to thank you for going forward with the NASA 
Shared Services Center decision. I think you made a good 
choice. Obviously I am prejudiced in that regard, but there 
were a lot of things to consider, a lot of countervailing 
pressures. And I think you made the right decision and that the 
history of this will show that it will serve NASA well.
    I also understand that the U.S. Trade Representative is 
providing you with guidance on the use of NASA facilities in 
connection with a EADS-proposed U.S. commercial aviation 
research and manufacturing facility. And I would urge you to 
work as closely as you can with the State of Mississippi and 
Hancock County in our state with respect to this proposal.
    And so basically, I just wanted to get those things on 
record. And at this point it makes me feel good to be able to 
come to a NASA hearing and commend a NASA representative for 
their effort. Maybe it is just because you are just getting 
started, but I hope you can keep it up. Good luck, sir.
    Senator Hutchison. Thank you, Senator Lott. I am very 
pleased that you are staying active on the Subcommittee, 
because I do want to have a reauthorization of NASA this year. 
And I do plan to invigorate our oversight efforts.
    Dr. Griffin, welcome.

 STATEMENT OF DR. MICHAEL D. GRIFFIN, ADMINISTRATOR, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Griffin. Thank you, Senator Hutchison, Senator Lott, 
Senator Nelson. I appreciate your very kind remarks.
    I will endeavor to continue in the pattern that we have 
begun in our relationship, which is to give you the best 
answers that I have to the questions that you ask. And if the 
answers are difficult, then I look forward to working with you 
to make them as palatable as we can. But I will tell you every 
time what I believe to be the case.
    Senator Hutchison, while you were mentioning that the most 
important person for the hearing was here so we could start, I 
was actually thinking in my own mind that my role was more like 
that of the pig in a ham and eggs breakfast. You cannot start 
without me, but I am at the wrong end of the food chain.
    [Laughter.]
    Dr. Griffin. So with that, I will continue with my formal 
remarks.
    Madam Chair and Members of the Subcommittee, thank you for 
the opportunity to appear before you today to discuss the plans 
for the Space Shuttle in carrying out the first steps of the 
Vision for Space Exploration with Return to Flight and assembly 
of the International Space Station, our plans to date for the 
Shuttle retirement by 2010, and our progress in minimizing the 
gap between retirement of the Orbiter and the first flight of 
the Crew Exploration Vehicle.
    In presenting the vision last year, the President----
    Senator Hutchison. Dr. Griffin, could I interrupt you?
    Dr. Griffin. Yes, ma'am.
    Senator Hutchison. You were not planning to read your whole 
statement, were you? Could you summarize?
    Dr. Griffin. I had an oral statement.
    Senator Hutchison. Is it different from your written 
statement?
    Dr. Griffin. It is. But let me shortcut it in the interest 
of time. Let me just go forward and say we are in the middle of 
returning to flight. As you know, we delayed by 3 months. We 
think that was the right thing to do. The recommendation was 
presented to me, and I concurred with it. We are still working 
some technical issues. We will go when we can.
    We are, as I believe you now know, working vigorously at 
NASA to consider alternate options for space station assembly 
sequence, looking at how we can complete the station consistent 
with our obligations and yet consistent with a Shuttle 
retirement date in 2010. I have promised the Congress the 
results of this internal study by mid-summer.
    We are looking at phasing out Shuttle operations. We have 
studied lessons from the Titan IV community. We are considering 
how the phase-out of the Shuttle orbiter will be consistent 
with the development of a new architecture for the CEV, its 
transportation system and human return to the Moon. There are a 
number of critical decisions that need to be made in that 
regard. And we will be sharing those with you as we go forward.
    As I have just said, we have an Exploration Systems 
Architecture Study (ESAS) ongoing at headquarters in parallel 
with our Space Station assembly study. Preliminary results from 
that study also will be made available to the Congress by mid-
summer. And I look forward to working with you as we shape that 
up.
    And with that, as I have testified previously in my 
confirmation hearing and last week, I believe with you that the 
gap in human space flight capability, access to space by the 
United States between the necessary retirement of the Shuttle 
Orbiter and the bringing on line the new Crew Exploration 
Vehicle must be absolutely minimized. And I look forward to 
working with your Committee and with the Congress as a whole to 
achieve that goal.
    Thank you. And I stand ready for your questions.
    Senator Hutchison. Well, thank you.
    [The prepared statement of Dr. Griffin follows:]

 Prepared Statement of Dr. Michael D. Griffin, Administrator, National 
                  Aeronautics and Space Administration
    Madam Chair and Members of the Subcommittee; thank you for the 
opportunity to appear before you today to discuss the status and role 
of the Space Shuttle in human space flight, our plans for the Shuttle's 
retirement, our progress in minimizing the gap between the retirement 
of the Space Shuttle and the introduction of the Crew Exploration 
Vehicle.
    On January 14, 2004, President George W. Bush announced the Vision 
for Space Exploration. The President's directive gave NASA a new and 
historic focus and clear objectives. The fundamental goal of this 
directive for the Nation's space exploration program is ``. . . to 
advance U.S. scientific, security, and economic interests through a 
robust space exploration program.'' In issuing this directive, the 
President committed the Nation to a journey of exploring the solar 
system and beyond, returning humans to the Moon, and sending robots and 
ultimately humans to Mars and other destinations. NASA embraced this 
direction and began a long-term transformation to enable us to achieve 
this goal.
    The first steps in enabling the Vision for Space Exploration are to 
return the Space Shuttle fleet to flight, to focus the use of the Space 
Shuttle on completing assembly of the International Space Station, to 
retire the Space Shuttle by 2010, and to replace it as soon as possible 
thereafter with the new Crew Exploration Vehicle (CEV). Given the 
importance of ensuring that the Space Shuttle is returned to flight 
safely, the Space Shuttle program and, indeed, the whole of NASA has 
been devoting its available resources and human capital to ensuring 
that this first step is executed to the best of our abilities. Once the 
two Return to Flight missions are behind us and we have developed a 
higher level of confidence in the knowledge of the Shuttle debris 
environment, we can focus a greater level of attention on the important 
issues surrounding Space Shuttle transition and the development of the 
next generation of human spaceflight vehicles.
Space Shuttle Return to Flight
    On April 28, 2005, the Space Shuttle program management recommended 
that we extend our planning for the first Return to Flight mission, 
STS-114, to support the launch window that opens in July 2005. I 
concurred with this recommendation. This change was not the result of 
any single problem, but instead reflected the need to take additional 
time to perform our verification and validation reviews, and to assess 
the results from the External Tank (ET) fueling test performed on April 
14, 2005. We knew that there were some open questions going into these 
reviews and tests, and we had very detailed plans for developing 
answers to those questions. We also understood that the reviews and 
tests might raise additional questions before Return to Flight, and 
that we would have to be prepared to review our plans and launch 
opportunities in light of this. That is exactly what happened. One of 
the most notable outcomes was our decision to modify the feed line 
bellows area with an electrically powered heater to further reduce or 
eliminate the ice that naturally forms in the area.
    This decision to insert some additional planning time to support a 
mid-July launch opportunity was not made lightly. Everyone in the Space 
Shuttle program recognizes that we have an extremely important mission 
to carry out, and that completing assembly of the International Space 
Station and executing the Vision for Space Exploration cannot happen 
until we return the Space Shuttle to flight. At the same time, this 
change reflects our continuing commitment to remain focused on safety 
of flight considerations and prudent engineering decisions. 
Transporting people into space remains risky compared to most other 
human endeavors. We must make sure that every decision to send people 
on missions into space is made with the utmost concern for their 
safety.
    Today, work continues in preparation for another ET tanking test 
scheduled for as early as tomorrow, May 19, while the STS-114 Shuttle 
stack is still at its launch pad. Engineers and technicians are adding 
instrumentation to the tank to help troubleshoot two problems that were 
detected during its first tanking test on April 14. The instrumentation 
will provide data to further analyze and diagnose the cause for these 
two problems: the liquid hydrogen sensors that gave intermittent 
readings and the liquid hydrogen pressurization relief valve that 
cycled more times than standard during last month's test. Following the 
tanking test, technicians will prepare for rolling back Discovery to 
the Vehicle Assembly Building (VAB) no earlier than May 24. In the VAB, 
Discovery will be removed from its ET and lowered into the transfer 
aisle.
    It has taken an extraordinary effort to return the Space Shuttle 
fleet to flight readiness status. One hundred and sixteen individual 
hardware modifications (41 of which were directly related to the 15 
Return to Flight recommendations of the Columbia Accident Investigation 
Board [CAIB]) and over 3.5 million work-hours have gone into Return to 
Flight, raising the bar, and launch processing activities on Space 
Shuttle Discovery alone. Our Return to Flight effort has been focused 
on identifying hazards, re-designing current systems to eliminate or 
control those hazards, providing means for warning that hazards might 
have occurred during flight, and emplacing standardized special 
procedures to counter any hazardous conditions that might arise. We 
have eliminated the External Tank bipod foam which was the proximate 
cause of the Space Shuttle Columbia accident on February 1, 2003. The 
crews on board Discovery and the International Space Station will now 
be able to detect critical damage to the Space Shuttle's thermal 
protection system during the first two development test flights and, in 
the unexpected event of severe damage, to take shelter in the 
International Space Station until a rescue mission can be launched. We 
have gone well beyond the recommendations of the CAIB to reduce risks 
and provide additional safety measures through added hardware 
improvements and procedural changes.
    Return to Flight has been a massive effort, focusing the energies 
of every technical discipline across all the NASA Centers and Space 
Shuttle contractors on a very specific objective. It has been, in 
short, an example of NASA at its finest. I am very proud of this Space 
Shuttle team and this Agency for their hard work, their diligence, and 
their incomparable expertise and professionalism during these difficult 
times.
    But returning the Space Shuttle fleet to flight status is only the 
first step in the Nation's Vision for Space Exploration. Over the next 
few years, the Space Shuttle fleet will resume executing some of the 
most complex missions ever attempted in space. The return to Space 
Shuttle operations means that NASA can once again return to assembly of 
the International Space Station. The first two Space Shuttle Return to 
Flight missions, STS-114 and STS-121, are development test and 
logistics missions which will focus on carrying cargo to the Station 
and thoroughly exercising the extensive hardware and process changes 
made during the past 27 months. Following those two flights, the crew 
of STS-115 will resume the assembly of the International Space Station. 
We will complete assembly of the International Space Station using the 
minimum number of Space Shuttle flights necessary.
Space Shuttle Transition--Scope
    As the Space Shuttle resumes its mission, NASA will begin tackling 
an equally challenging assignment--ensuring a safe and orderly 
retirement of the Space Shuttle system by 2010 and a graceful 
transition of the Space Shuttle knowledge, workforce, and assets to 
future exploration missions. We need to maintain a robust program that 
is capable of safely executing the remaining Space Shuttle missions 
while, at the same time, not displacing the orderly pursuit of 
necessary transition activities.
    This effort could very well be one of the largest single planned 
transitions NASA (or any federal agency) has ever undertaken. The Space 
Shuttle program occupies 640 facilities, utilizes over 900,000 
equipment line items, and directly employs over 2,000 civil servants 
and more than 15,000 work-year-equivalent prime contractors, with an 
additional 3,000 people working indirectly on Space Shuttle activities 
at all NASA Centers. Thousands more are employed at the subcontractor 
level in 43 states across the country. The total equipment value held 
by the Program is over $12 billion. The total facilities value held by 
the Program is approximately $5.7 billion (approximately one-third of 
the value of NASA's entire facility inventory), mostly at the field 
centers. There are also approximately 1,500 active suppliers and 3,000-
4,000 qualified suppliers that directly support the Space Shuttle 
program.
    Of all these assets, the most important are, of course, the people. 
Space Shuttle transition will have an unavoidable impact on NASA's 
workforce. The early transition of workforce elements, the need to 
retain segments of that workforce, and the transition of program 
knowledge to future programs must all be addressed. We will ensure that 
this transition treats these dedicated people with the respect they 
deserve, and that their knowledge and experience will be captured or 
converted as we begin the next phase of exploration. There will be 
challenges, but we will ensure that critical skills are retained for 
safe mission execution through the operational life of the program.
    NASA and the Space Shuttle program will also face significant 
challenges in terms of balancing different technical and programmatic 
requirements: (1) maintaining access to the necessary equipment, 
facilities, and vendors needed through Space Shuttle flyout; (2) 
identifying and maintaining those capabilities that may be needed for 
next-generation exploration systems activities, and; (3) retiring 
unneeded capabilities to free resources that will support future 
exploration. For example, because the amount of flight hardware 
accumulated (including spares) will be sufficient to meet the current 
mission manifest through 2010, several key Space Shuttle hardware 
vendors and sub-tier suppliers will be ending their relationship with 
the program prior to 2010. Draw-down decisions need to be made with 
regard to equipment and facilities which currently support (and are 
supported by) the Space Shuttle program. These resources will need to 
be characterized and dispositioned in such a way that either supports 
exploration goals or removes them from NASA's books.
    Many of these decisions depend upon the role that Space Shuttle 
knowledge, workforce, hardware, and infrastructure will play in follow-
on launch vehicles. NASA is continuing to analyze next-generation crew 
and heavy-lift launch requirements in support of the Vision for Space 
Exploration, including the degree to which those requirements could be 
met by boosters derived from existing Space Shuttle propulsion 
components and systems. Flight-proven Space Shuttle propulsion elements 
(including the Space Shuttle Main Engines, the Solid Rocket Boosters, 
and the External Tank, as well as some of the existing Space Shuttle 
infrastructure and workforce) will be carefully evaluated, as their use 
may enable more rapid development of crew and heavy lift capability 
than other alternatives like Evolved Expendable Launch Vehicles (Delta 
IV and Atlas V). A decision to use Space Shuttle propulsion elements as 
part of our next-generation space transportation architecture would 
have a significant impact on Space Shuttle transition planning. 
However, since these launch vehicle requirements are not yet fully 
defined, current Space Shuttle transition planning must take into 
account the risks of prematurely terminating Space Shuttle vendors and 
retiring equipment and facilities that could possibly be needed to 
fulfill these requirements.
    Space Shuttle transition will also be affected by the number and 
pacing of flights needed to complete assembly of the International 
Space Station. NASA is also currently examining alternative 
configurations for the Space Station that meet the goals of the Vision 
and the needs of our international partners, while requiring as few 
Shuttle flights as possible to complete assembly. This effort will be a 
factor in the formulation of NASA's FY 2007 budget, and we will keep 
Congressional Committees informed as the study effort progresses.
    I believe that Space Shuttle transition will be one of the largest, 
most complex, and most emotionally-charged tasks facing NASA during the 
initial phases of the Vision. It cannot be started too soon.
Space Shuttle Transition--Processes
    The single most important requirement in Space Shuttle transition 
is to maintain the highest level of flight and ground safety through 
the life of the Program. The last flight of the Space Shuttle must be 
just as safe as the upcoming Return to Flight missions. The success of 
Space Shuttle transition will also depend upon serving the goals of the 
Vision for Space Exploration in such a way that takes maximum advantage 
of existing programs and personnel, minimizes the negative impacts of 
transition on Space Shuttle team morale and performance, and ensures 
full compliance with all relevant federal, state, and local laws and 
standards.
    Our transition planning began soon after the release of the Vision 
for Space Exploration a year ago. While our efforts over the past 2 
years have been dedicated to Return to Flight, NASA has also concluded 
the exploratory phase of its Space Shuttle transition activities and 
has begun to set out the next steps in transition planning. We have 
benchmarked phaseouts in other high-technology, systems-intense 
programs, including the ongoing retirement of the Titan IV program, 
which just had its final launch out of Cape Canaveral on April 29, 
2005. The Space Shuttle program has also asked the National Academy of 
Public Administration (NAPA) to assist us in our transition activities, 
particularly in the development of strategies and plans for the 
transition from the Space Shuttle program to the programs that will 
implement the Vision for Space Exploration.
    Through the recent Integrated Space Operations Summit this past 
March, NASA engaged a broad community on a number of issues affecting 
both the Space Shuttle and International Space Station programs. For 
this past year's annual Summit, NASA chartered one panel specifically 
to study Space Shuttle transition. That panel considered several 
programs, including the Titan IV, and developed recommendations 
intended to lay the foundation for managing Space Shuttle transition 
activities. In accordance with these recommendations, the Space 
Operations Mission Directorate will establish the position of Space 
Transportation System Transition Manager. The initial efforts of this 
manager will be to develop the planning as recommended by the 
Transition Panel and to look for candidate areas for transition from 
the Space Shuttle program. We will select an individual to fill this 
position shortly.
    The Space Shuttle program recognizes the importance of maintaining 
an experienced workforce to safely execute the Space Shuttle's mission 
through the end of the decade. The NASA Workforce Flexibility Act of 
2004 provides the Agency with vital tools, such as the authority to 
provide workforce retention bonuses in critical skill areas, that will 
help retain the necessary human capital needed during mission 
execution. NASA has nine panels and teams looking at workforce issues 
across the Agency, in addition to the Integrated Space Operations 
Summit Transition Panel's workforce assessment. We have also invited 
human capital experts from government and private industry to advise us 
on best practices during Space Shuttle program phaseout.
    Many of our contractor partners have begun taking steps (such as 
defining critical skill requirements and bringing in human capital 
consulting firms) to counter the impact of transition on mission 
execution. Provisions in the follow-on to the Space Flight Operations 
Contract (which runs through September 2006) will require the prime 
Space Shuttle operations contractor, United Space Alliance, to prepare 
for sustaining its required workforce, including submitting a critical 
skills retention plan.
Accelerating the Crew Exploration Vehicle
    A cornerstone of the Vision for Space Exploration is a Crew 
Exploration Vehicle (CEV) and its associated launch system. The CEV 
will be developed in the latter part of this decade and deployed 
operationally as soon as possible. The primary mission of the CEV will 
be the exploration of the Moon and other destinations, but initially it 
will conduct missions in Earth orbit, including missions to the 
International Space Station.
    Our earlier plans called for operational deployment of the CEV not 
later than 2014. As I testified during my confirmation hearing, I 
believe that the CEV development must be accelerated in order to 
minimize the gap between the 2010 Space Shuttle retirement and the 
first operational flight of the CEV. NASA has embarked upon a rigorous 
review of the Crew Exploration Vehicle (CEV) architecture to determine 
opportunities to accelerate the availability of the CEV. This 
assessment is a part of the ``Exploration Systems Architecture Study'' 
(ESAS), which I chartered on April 29, 2005. The product of this 
analysis is anticipated by mid-July 2005. Acceleration of the CEV 
program will be facilitated by down-selecting to a single contractor 
sooner than originally planned, and by deferring other elements of the 
exploration systems research and technology plan, like demonstration of 
nuclear electric propulsion, not required for the CEV or for the early 
phases of human return to the Moon.
    The CEV will conduct missions in Earth orbit, including missions to 
the ISS, but its primary mission will be to support exploration of the 
Moon and other destinations. In addition, NASA's Exploration Systems 
Mission Directorate will be responsible for developing and acquiring 
crew and cargo services to support the International Space Station, and 
funds have been transferred to that Directorate, as reflected in the 
May update to the FY 2005 Operating Plan.
    NASA needs to communicate our view of the CEV launch architecture 
and our requirements, and we will keep Congressional Committees 
informed as the ESAS study effort progresses. Going forward, the Agency 
will need a launch system for the CEV, one which does not at present 
exist. Two obvious possibilities exist by which we might obtain such a 
vehicle. The first is to develop a launch system derived from Shuttle 
components, specifically the SRB with a new upper stage. The second 
option is to upgrade the proposed heavy-lift versions of EELV, again in 
all likelihood with a new upper stage. As NASA Administrator, I must be 
a responsible steward of our funds, and a key aspect of the Agency's 
analysis of alternatives will be to capitalize on existing technical 
and workforce assets in a cost-effective and efficient way. NASA's goal 
is to develop a CEV capable of operating safely soon after the 
retirement of the Space Shuttle.
Summary
    Space Shuttle transition represents an enormous challenge for NASA 
and for the Nation as a whole. While we have benchmarked other programs 
that are similar in scope to the Space Shuttle, the Shuttle is one of 
the largest single programs for which an orderly transition to disposal 
has ever been required. I do not want, and we should not want, to 
repeat the mistakes made in the aftermath of the Apollo program, where 
many unique capabilities were shut down abruptly and irretrievably. We 
must transition the Space Shuttle in a way that ensures continued 
safety in our ongoing operations, maximizes the efficiency with which 
we utilize our resources, respects the Space Shuttle workforce, and 
protects critical national capabilities that will be needed to support 
the Vision for Space Exploration. There will be hard decisions to be 
made over the next 5 years. It is vital, however, that we remain 
focused on the worthy and ambitious goals laid out by the President on 
January 14, 2004.
    Thank you for the opportunity to testify today, and I look forward 
to responding to any questions you may have.

    Senator Hutchison. I am so sorry we are having to do this 
quickly, because there is so much that we have to say and we 
have a great second panel, as well.
    But let me ask you first, if I were to ask you what are the 
top priorities for the use of the Space Station, the research 
that you would do at the Space Station right now, what would 
those three priorities be?
    Dr. Griffin. The Space Station is very useful as a test bed 
for hardware that we will be developing for exploration. Much 
of that hardware that we intend to take to the Moon and later 
on to other destinations would be better flight tested in lower 
orbit close to home. One does not require that such hardware be 
tested on a space station, but given that we have one, that 
would be the logical place to do it.
    There will be, as the years evolve, there will be a number 
of scientific experiments that can be palatized and can be 
attached to the Space Station, as opposed to necessarily being 
on a free-flying spacecraft. Again, if we did not have a Space 
Station, we might do otherwise. But having one, we will look 
for opportunities to use it.
    There will be research that can be conducted on the station 
by the virtue of the ability of the station to provide an 
extended zero gravity time. Response of human and other 
organisms to zero gravity can be examined under controlled 
conditions on the station.
    The station is limited in its research potential by the 
fact that we are not able on the station to combine the 
appropriate radiation spectrum for deep space flight together 
with the zero G environment.
    It is those two environments together that are the truly 
relevant environment. And we cannot mimic those. But we can at 
least mimic the zero G portion.
    Senator Hutchison. There is a consortium of universities 
now that takes the medical research that can benefit from being 
performed in space and that decides what the priorities are and 
then expands on those. Do you foresee within your budget being 
able to continue that consortium doing the medical side of the 
research that is going on at the Space Station?
    Dr. Griffin. Given the priorities that I have stated, that 
the Administration has supported, and that I believe are shared 
by this Committee, the short answer to your question is not in 
full scope. In order of priorities, I need to complete the 
return of the Space Shuttle to flight and fly every flight 
safely.
    We need to complete the assembly of the International Space 
Station. Deferring it will likely only cost more money. We 
need, very much need, as you have said, to bring the CEV on 
line sooner rather than later, minimizing the gap in human 
space flight.
    One of the few areas of freedom that I have as the 
administrator is the, I hesitate to call it a pot, but the pot 
of research and technology money that can be, if you will, 
bought by the yard. That is one of the few areas where I have 
any flexibility at all. If I am to accelerate the development 
of the CEV, a good chunk of that money must be used to do so.
    Senator Hutchison. Would you provide for me and the 
Committee a cost estimate of what the biological research, the 
medical research, is, even if it is scaled back perhaps? But 
what about the ongoing experiments that we have heard about on 
breast cancer tissue? I would imagine that even in your top 
priorities, the zero gravity conditions still allow you to look 
at the osteoporosis effects on humans and--so that these would 
be continuing areas of the medical research that would also be 
in your top priority list. But could you also tell us what it 
would cost to do the other types of research that can be done 
in zero gravity uniquely and are part of the university-based 
research consortium so we have an idea of what that budget is?
    Dr. Griffin. Yes, Senator, we will. And I will indicate to 
you what our priorities would be for the research that would 
continue and what we would plan to delay or defer in order to 
accelerate CEV.
    Senator Hutchison. That would be very helpful. My last 
question in this round would be, obviously you are focusing on 
the CEV. You have said that the Shuttle itself is flawed, 
perhaps because of the heavy payload. I don't know all of the 
reasons why. But my question is this: How do you propose and 
what is your priority ranking for getting payload to the Space 
Station or perhaps even beyond to the Moon, if that is 
necessary, if you do not have a Shuttle that can carry payload? 
How do you plan to do that? And what are you--where is that in 
your priority list when you do not have a Shuttle anymore?
    Dr. Griffin. Senator, that is an excellent question. Thank 
you. Of course, we have been getting cargo to the Space Station 
for the last two-plus years while the Shuttle has been 
grounded, through the good offices of our Russian partner, with 
a series of progress flights. The progress system is limited in 
capacity, but it does feature the capability to do an automated 
proximity operations flight plan and automated rendezvous and 
docking with the Space Station.
    The United States needs to develop that capability, and we 
will be doing so. Later this summer, perhaps early fall, we 
will be releasing an RFP in the crew and cargo line--I think 
you will find that in our budget--that is intended specifically 
to address the provision of Space Station cargo resupply, up-
mass, if you will, by commercial means, commercial contracts to 
all carriers.
    In addition, the Exploration Systems Architecture Study 
(ESAS) we are doing over the summer will define a path by which 
the government can meet government requirements for cargo to 
Space Station, should commercial providers fail to show up. So 
we will have two paths.
    Going forward, our budget baseline will assume that 
commercial cargo carriers will be able to provide those 
services to the station.
    Senator Hutchison. So bottom line, you do intend for us to 
have some capability, besides depending on any other partner, 
for that responsibility.
    Dr. Griffin. Absolutely.
    Senator Hutchison. Thank you.
    Senator Nelson?
    Senator Nelson. Thank you, Madame Chairman.
    What happens if the CEV is not ready by 2010 when your plan 
is to scrap the Shuttle?
    Dr. Griffin. It is my job to convince you that we will have 
a development plan for CEV that has it ready by 2010, or as 
soon thereafter as we can we will say the date and we will try 
to hold to it. I will try to convince you, as we go through the 
next few years together, that we are holding to that plan. In 
part, the definition of what the CEV is needs to be done with 
the constraint that it be buildable, that it be an executable 
program and can be fielded shortly after the Shuttle's 
retirement.
    Senator Nelson. And in that plan would be the plan for the 
orderly transition from one to the other?
    Dr. Griffin. Exactly. Yes, sir.
    Senator Nelson. Of course at that point, we assume that the 
Space Station would be up in full bloom and running with a 
complete complement of astronauts doing research. Therein is 
another reason why we need the follow-on vehicle ready, so that 
there is not this hiatus. Given the fact of our experience back 
in 1975 in the last Apollo, it was Apollo-Soyuz, we thought we 
were going to fly the Space Shuttle in about 1978. And it did 
not fly until 1981.
    A part of that work force was effectively utilized so that 
they did not have to lay them off and that that corporate 
memory was all there. What are your plans, what is your 
thinking about, if there did occur this hiatus, of how you 
would keep that team together?
    Dr. Griffin. Senator, I lived through that period as a 
working engineer and remember it well. It is not one of my more 
pleasant memories from my 35 years in the space business. So 
one of the reasons I so strongly support the concerns which 
have been expressed about minimizing that gap in human space 
flight capability is that I frankly do not want to live through 
that experience twice.
    Our primary contractor in Space Shuttle, space flight, 
launch operations, launch preparations is, of course, the 
United Space Alliance. We work with that contractor every day, 
every week. We have very close ties with them. We are pleased 
with the work. It is our goal going forward in developing a 
transition plan from Shuttle to CEV to be hand in glove with 
our USA contractor to effect the most orderly transition that 
we can.
    As I said briefly in my opening statement, we have studied 
lessons learned from the Titan IV transition. We have gone back 
and studied lessons learned from the Saturn Apollo to Shuttle 
transition. Some of those lessons are good ones and some are 
things to be avoided. We are paying attention.
    There are two basic issues. Any launch system--I referred 
earlier to the fact of, the known fact of, it takes about $4.5 
billion to keep the Shuttle going whether you fly any flights 
or not. The new system must have lower fixed costs or we, the 
United States, will not have effected any improvement. Lower 
fixed cost means a smaller work force in the sense of a 
standing army. So we want to shift money from what it takes 
merely to launch payloads into more exciting and new things 
that we want to do. So some work force will be transitioned 
going forward and other elements of the work force must be 
transitioned to new activities. Otherwise we would do nothing 
new.
    That program must be managed as carefully and in as much of 
a forward-looking sense as we possibly can. That is our every 
intention.
    Senator Nelson. And an additional computation here is that 
you will have a full-up, robust, internationally participated 
in Space Station that you want to utilize. And suddenly, if you 
stop the Shuttle and you do not have the follow-on vehicle to 
service that Space Station, you cannot use all of that 
investment of multiple tens of billions of dollars up in the 
heavens. For example, what would we use as a lifeboat? I guess 
we would have to use the Soyuz. Well, then therefore, you have 
to drop the level of the crew so you are not using that super 
structure up there that we have invested so much in.
    What is your thinking there?
    Dr. Griffin. I cannot but agree with you. If we have a 
station, we need to be able to use it. I do not know how to say 
in enough different ways that I am convinced that your concern 
about minimizing such gaps in access are on target. We at NASA 
are working to eliminate that and to provide a credible plan 
for doing so.
    Senator Nelson. Well, I commend you on what you have 
already done, which is accelerate the CEV and see if that is 
doable. But that then begs my next statement, which is, if it 
cannot be accelerated, then maybe it is in the interest of the 
United States to extend the Shuttle.
    Dr. Griffin. Sir, if we do that, then we face the circular 
problem. I have a hole in my gas tank, but the money I have to 
spend buying the gasoline prevents me from paying the mechanic 
to fix the tank.
    Senator Nelson. Well, then----
    Dr. Griffin. I have to retire the Shuttle in order to have 
the money to do the things that you and I both want to do.
    Senator Nelson. Understandably. But if the development CEV 
does not occur in the expeditious way that you hope and that 
you are giving leadership to, and we commend you for that, you 
have to have a plan B. Otherwise we are going to waste all that 
asset up there.
    Just a concluding thought here, Madame Chairman. In a 
previous hearing we had brand new testimony about the promise, 
for example, that I did not know of the experiments that are 
going on on protein crystal growths, experiments that were made 
20 years ago and of which there was some question of whether or 
not it was financially feasible to do that in orbit, as opposed 
to on Earth. But now that we are seeing new promise, as was the 
testimony, I still have not received those answers. And I would 
like this statement to NASA, please get those answers back to 
me.
    But if there is that promise of medical breakthroughs on 
such things as protein crystal growth on orbit, then that is 
just all the more reason why we need to keep that International 
Space Station functioning.
    Thank you.
    Senator Hutchison. Thank you. I agree.
    I would like another round, but we are told that we have to 
end at 11:30. And therefore, I am going to ask you to come back 
and see us very soon and stay in touch with us. And we will 
call our second panel.
    Dr. Griffin. I am at your disposal.
    Senator Hutchison. Thank you very much.
    Dr. Griffin. Thank you.
    [Pause.]
    Senator Hutchison. OK. If you would, I would like to ask 
you, since we are on a very tight timeframe, if you would each 
speak 2 minutes, summarize all of your statements with your 
major points. And then we will have a few minutes left for 
questions.
    I would like to first ask Mr. Michael McCulley, who is the 
President and Chief Executive Officer of United Space Alliance.

  STATEMENT OF MICHAEL J. McCULLEY, PRESIDENT AND CEO, UNITED 
                         SPACE ALLIANCE

    Mr. McCulley. Thank you for the opportunity to speak on 
this very important subject. It is my privilege to be 
representing the 10,000-plus men and women of the United States 
Alliance. And I can tell you that virtually everything we are 
doing these days is focused on supporting NASA in the Return to 
Flight effort.
    But having said that, we all realized when the President 
gave his vision speech last January, there would be a new world 
for USA and that was this world of transition. And so within 
minutes of the speech, we started transition planning. It goes 
on today. It is a transition that must be carefully and 
proactively managed and led.
    NASA and USA have taken measures to address that transition 
in terms of workforce, facilities, hardware, equipment, test 
assets, and also the supplier base. The GAO has also weighed in 
on this. And I will not quote, as I was going to do, but they 
have done an excellent initial report on our efforts to start 
managing this transition.
    In addition, NASA and the NASA industry partnership through 
the Space Operations Summit have also begun transition 
planning, including all of those things that I mentioned 
earlier. It also would include retention, recruitment of 
critical skills, how we dispose or preserve the assets. It has 
resulted in some changes in the Shuttle program office that are 
proactive attempts to get a jump on this transition.
    In addition, over the years, USA, owned by Boeing and 
Lockheed Martin, has had excellent results in previous times 
when there has been either an overage or a shortage on one 
company's part or the other. We have developed a really good 
procedure of transferring employees back and forth. We have 
used it very successfully. And I would anticipate that we will 
have that in the future, as well.
    In addition, Dr. Griffin mentioned the Titan program. I 
have been paying very close attention to the Titan program, 
which flew its last flight in Florida last month, I have met 
with the contracting officers to understand what the Air Force 
did with Lockheed Martin is in contract to make changes to 
retain critical skills through the last flight. The Space 
Flight Operations Contract has a follow-on provision that we 
are working on now with NASA. I would anticipate that NASA 
would require us in that contract to do more proactive planning 
on how we are going to work our way through this transition and 
to insure that the last Space Shuttle flight is just as safe as 
the next Space Shuttle flight.
    Of course, the execution and timing of all these measures 
depends on a number of different things, and a number of 
different requirements. I am sitting here with a great deal of 
uncertainty right now, but I am pleased that Dr. Griffin has 
put his teams in place and has said the summertime is their 
deadline. So I anticipate by the summer or the fall I will have 
a much better idea of what I need to do with specific goals, 
requirements and planning horizons.
    You had asked about the industrial base and asked me to 
comment on that. It is a great question, because many of the 
skills and certifications that are in the Shuttle program are 
unique to that program. As we begin to fly down, we have a 
vendor base out there that we have to carefully manage. Some of 
their contracts have options like lifetime buys on materials or 
products. Other times we do not have that option.
    For example, the United Technologies Company builds the 
fuel cells for the Space Shuttle. Well, we are not going to 
order any more fuel cells. So we are a very small part of their 
business. But I need that skill set in place up until the last 
landing on the last flight. And so our contractual arrangements 
need to reflect that. And so it changes our contracts and the 
way we manage contracts. We are also working that proactively.
    In summary, we were created for one customer, and that is 
NASA. I have 10,000-plus experts, including myself and my 
management team, focused on supporting that customer.
    Senator Hutchison. Thank you very much.
    [The prepared statement of Mr. McCulley follows:]

 Prepared Statement of Michael J. McCulley, President and CEO, United 
                             Space Alliance
    Madam Chairwoman, Ranking Member Nelson, Members of the 
Subcommittee. I am Mike McCulley, the President and Chief Executive 
Officer of the United Space Alliance (USA).
    Thank you for giving me the opportunity to address the Subcommittee 
on current Space Shuttle operations and the timing and scope of the 
planned retirement of the fleet.
    It is my privilege to represent the 10,400 men and woman of USA 
located primarily in Texas, Florida, and Alabama.
    USA is responsible for the day-to-day operations of NASA's Space 
Shuttle system, excluding the propulsions elements managed by the 
Marshall Space Flight Center. USA was formed in 1996 through 
consolidation of 29 Shuttle contracts into one single contract and 
organization.
    The foremost focus of USA and its employees today is the safe 
return to flight of the Shuttle. Beyond this imperative, we are also 
working with our NASA customer to face the reality of Shuttle 
retirement and do the necessary planning to ensure an efficient, timely 
and prudent transition to the CEV.
    As the Subcommittee Members are aware, the current exploration plan 
contains a gap in U.S. human space flight capability between the 
projected retirement of the Shuttle and the availability of a fully 
operational Crew Exploration Vehicle (CEV) and its new launch system. 
This so called gap has a number of associated issues including U.S. 
reliance on foreign nations for human access to space, the need for a 
heavy-lift cargo launch capability for cargo to and from the 
International Space Station, the potential loss of vital workforce 
skills and experience, and related impacts to the U.S. industrial base.
    Retention of the critical skills required to fly safely and 
successfully throughout the remaining life of the Shuttle program and 
the ability to transition those workers with the necessary skills and 
competencies to the next generation of launch vehicles, remains a top 
priority for NASA and USA. The new NASA Administrator, Dr. Michael 
Griffin, has testified that he has established an Exploration Systems 
Architecture Study team to examine ways to accelerate the development 
of the Crew Exploration Vehicles in order to minimize any gap in the 
U.S. capability for human space flight.
    USA understands and fully appreciates the need to plan for the 
future of our critically important workforce and has taken steps to 
develop such a plan. We are also working with NASA on all aspects of 
transition planning including: workforce, facilities, hardware, 
equipment, test assets, and supplier base.
Transition
    There are over 20,000 NASA and contractor employees working on the 
Shuttle Program. As the Shuttle is retired, it is expected that a 
number of contractor and civil servant employees will initiate personal 
retirement, while a number will remain, to continue to support human 
space flight by moving to the new exploration programs. However, as 
currently envisioned, the number of employees available for this 
opportunity could be limited both by the gap between Shuttle retirement 
and CEV operational capability, and by the exploration emphasis on 
increased operational efficiency. Although there remain uncertainties 
with respect to specific plans for implementation of the exploration 
Vision, we are continuing to assess options for the future to ensure a 
seamless transition for our employees while meeting the needs of our 
NASA customer.
    Following President Bush's announcement of the Vision for Space 
Exploration, NASA, USA and other aerospace industries began an early 
initiative to identify and prioritize solutions to address both fly-out 
and phase-out of the Shuttle program. The Integrated Space Operations 
Summit (ISOS) was held earlier this year to identify the issues 
associated with transition planning for workforce, facilities and 
industrial base. The Summit considered the risks and challenges for the 
retention and recruitment of a critically skilled workforce as well as 
strategies for preservation or disposition of space flight assets, 
which include real property, equipment, tooling, and test sets. Since 
the Summit, NASA's Space Shuttle Program Office has initiated a 
transition plan and formed an asset management working group.
    As reported by the Government Accountability Office (GAO) in its 
March 2005 Report entitled, ``Space Shuttle: Actions Needed to Better 
Position NASA to Sustain Its Workforce through Retirement,'' p.12:

        ``United Space Alliance has taken preliminary steps to begin to 
        prepare for the Space Shuttle's retirement and its impact on 
        the company's workforce. For example, the company has begun to 
        define its critical skills needs to continue to support the 
        Space Shuttle program; has devised a communication plan; 
        contracted with a human capital consulting firm to conduct a 
        comprehensive study of its workforce; and continues to monitor 
        indicators of employee morale and workforce stability. While 
        these efforts are underway, further efforts to prepare for the 
        Space Shuttle's retirement and its impact on their workforce 
        are on hold until NASA first makes decisions that impact the 
        Space Shuttle's remaining flight schedule and thus the time 
        frames for retiring the program and transitioning its assets. 
        Once these decisions have been made and United Space Alliance's 
        contract requirements have been defined, these officials said 
        that they would then be able to proceed with their workforce 
        planning efforts for the Space Shuttle's retirement, a process 
        that will likely take 6 months to complete.''

    United Space Alliance has retained Watson Wyatt's Human Capital 
Practice to benchmark industry's effective employee retention programs 
and to conduct a comprehensive study of USA's human resource programs 
as they relate to current and anticipated workforce retention 
objectives. This study is focused on the current situation, as well as 
projections out 6 years, regarding human capital investments and risk 
mitigation, including, alignment, resources, turnover, selection, 
retention, transfer-of-knowledge and investments. The results of this 
study will be available this year, thus allowing implementation, as 
appropriate, well in advance of 2010.
    USA may have the ability to transfer valued workers into its owner 
companies, Boeing and Lockheed Martin. USA has been successful in the 
past, placing employees at those companies and in assisting employees 
in transitioning to other space-related businesses.
    USA's human capital systems are monitored continuously with special 
emphasis on critical skills required and addressing identified gaps in 
these skills as a result of attrition and retirements. These processes 
will continue with heightened emphasis throughout the remainder of the 
Shuttle Program.
    USA will also continue to conduct annual compensation and benefit 
surveys and studies that address our labor market competitiveness and 
will continue to monitor indicators of potential issues regarding 
workforce morale and stability.
    The execution and timing of skill retention and transition measures 
will depend entirely on the timing, sequence, and options chosen for 
transitioning from Shuttle to future exploration programs. Until we 
know more about these variables, it will be difficult to predict 
specific impacts. For instance, if NASA decides to pursue a launch 
vehicle based on current Shuttle components, then the impacts would be 
quite different from those of a vehicle program that does not involve 
Shuttle components.
    USA is actively evaluating and pursuing new business opportunities 
in space operations, such as CEV, that could utilize the unique skills 
and experience of the current Shuttle workforce. USA is also 
participating on the industry team evaluating ways to meet future 
launch system requirements with Shuttle Derived Launch Vehicle options.
    Our Business Development Office is working to position USA to 
participate in all future human space flight operations. With unrivaled 
capabilities in terms of safety, experience, performance and 
innovation, combined with a diversity of skills, USA is uniquely 
positioned to play a major role in future human space programs.
Industrial Base
    NASA's Space Shuttle budget pays for hardware, engineering, 
training, software development, Shuttle processing and many other 
things that go into flying the Shuttle. As the program winds down, 
there are elements that could phase-out of production, such as, the 
External Tank, Space Shuttle Main Engines, and Reusable Solid Rocket 
Motors. However, all of these major Shuttle system elements, which are 
managed by other NASA prime contractors, may be needed if Shuttle 
Derived Vehicles are selected for the exploration transportation 
system.
    Retaining critical supplies for the Shuttle must be a well thought 
out, carefully managed process. One approach is to use lifetime buys 
for consumable products that will last to the end of the program. 
However, there are some supplies that cannot be purchased in lifetime 
buys and cannot be transitioned to other suppliers. In those cases, it 
will require keeping a supplier on contract until the end of the 
program to support refurbishment requirements, provide on-going 
technical support, and retain process certification. NASA and USA 
already have many such contracts in place. An example is the Lockheed 
Martin contract for tooling and certified technician maintenance to 
refurbish and manufacture the Reinforced Carbon-Carbon (RCC) Wing 
Leading Edge. It is not likely that we will need additional RCC 
components however, we will require continuing support in the areas of 
testing and evaluation of flown hardware, failure analysis, and repair. 
A similar situation exists with United Technologies Corporation, which 
provides the Shuttle fuel cells. Maintenance of critical skills to 
support this hardware component through the last flight is critical.
    Many of the skills and certifications needed to support the Shuttle 
Program are unique to the program. It is difficult to estimate the cost 
or schedule impact to the Shuttle or to the CEV should those skills 
begin to deplete. We continue to be a very small part of many of our 
suppliers' business bases so, for some, there is little incentive to 
invest in or maintain these skills. As we move closer to the last 
Shuttle flights and the corresponding reduction in hardware 
procurement, this base could become more fragile.
Manifest
    You have asked that I also address current Space Shuttle operations 
and manifest.
    NASA and its industry team have embarked on a proactive Return To 
Flight Plan, which not only responds to the CAIB recommendations, but 
also ``raises the bar'' by addressing other safety concerns. The 
Columbia Accident Investigation Board initially published 15 
recommendations for various improvements to be completed before Space 
Shuttle Missions could resume. Of the original 15, 12 have been 
completed and 3 are in the process of being completed.
    NASA and its industry team have made improvements in technical 
excellence, communications and decision-making, improved the External 
Tank to reduce debris-shedding, instrumented the Shuttle wings to 
detect any debris hits during ascent and amassed an array of ground-
based and space-based imagery detection hardware that will give experts 
the ability to know if any debris hit the orbiter. If so, NASA is 
developing in-flight repair techniques and we have procedures to safely 
protect the crew onboard the Space Station if necessary.
    NASA and its contractor team are committed to flying the Shuttle 
only when all the risks have been appropriately mitigated. We are 
working with NASA to support the initial Return To Flight mission, STS-
114, which is currently planned for the July 13-31 launch window.
    At present, 28 Shuttle flights are baselined in the manifest-18 for 
assembly, 5 for utilization and 5 for logistical support. Relative to 
returning to flight, the first two flights, STS-114 and STS-121, carry 
much needed cargo to the Space Station and importantly serve as test 
flights of the improved Shuttle system. Testing will be conducted using 
the Orbiter Boom Sensor System (OBSS) to closely examine the Shuttle's 
Thermal Protection System and to assess on-orbit repair options and 
techniques for tile and the RCC. The remaining 26 Shuttle missions are 
manifested as Station assembly and outfitting flights.
    The International Space Station (ISS) is currently dependent on the 
Space Shuttle for assembly. We are still planning to fly the 28 flights 
manifested including the 18 identified as assembly flights but as the 
new NASA Administrator testified, NASA is currently examining 
alternative configurations for the Space Station. If changes to the 
manifest are made, we will work with our NASA customer to evaluate the 
impact to the overall program, our workforce and the supplier base.
Operations
    United Space Alliance is the leading human space flight space 
operations company in the world with experience in all aspects of 
ground processing, mission operations and planning, major system 
integration, and in-flight operations of multipurpose space systems. 
Through its support of the Space Shuttle and ISS programs, USA has 
developed an unrivaled combination of experience and capabilities in 
space operations. Our workforce and our supplier base have the spectrum 
of skills to support NASA's current and future human space flight 
programs including:

  <bullet> Mission, manifest and trajectory planning and analyses

  <bullet> On-Orbit assembly, payload deployment and servicing

  <bullet> Extravehicular activity planning and execution

  <bullet> Rendezvous and proximity, operations and docking operations

  <bullet> Space logistics and supply chain management

  <bullet> Space operations software engineering

  <bullet> Advanced space flight technology

  <bullet> Launch and recovery operations

  <bullet> Launch vehicle and flight hardware processing

  <bullet> Mission control operations

  <bullet> Space systems and crew training

  <bullet> Sustaining engineering

  <bullet> Flight crew equipment preparation and maintenance.

  <bullet> Large scale, complex systems integration

  <bullet> Subcontracts management

Conclusion
    United Space Alliance is committed to returning the Shuttle to 
flight and to supporting a seamless transition from the current program 
to future exploration programs. Workforce morale is high as the first 
step in the Vision draws near: the launch of Space Shuttle Discovery 
mission STS-114. We are committed to supporting NASA in our joint goal 
of making each flight safer for the crew than we believed that last one 
to have been.
    We also support NASA's goal to undertake a journey of space 
exploration over the next several decades as outlined in the 
President's Vision for Space Exploration. We understand that the 
retirement of 3 capable and space-worthy Space Shuttle orbiters is 
needed in order to move the Vision forward. Our exceptional workforce 
is committed to these goals and deserves our utmost consideration in 
the transition to a new system for space exploration.
    Let me again thank the Subcommittee for the opportunity to come 
before you today. I would be pleased to answer your questions.

    Senator Hutchison. I appreciate the very difficult job you 
are going to have in the, well, next 5 years to 2010 to 
maintain all the capabilities and yet knowing what a final date 
is, when that final date is set. Thank you very much.
    Dr. Joan Johnson-Freese is the Chairman of the Department 
of National Security Studies at the Naval War College.
    Dr. Freese, welcome.

        STATEMENT OF DR. JOAN JOHNSON-FREESE, CHAIRMAN, 
   DEPARTMENT OF NATIONAL SECURITY STUDIES, NAVAL WAR COLLEGE

    Dr. Johnson-Freese. Thank you, Senator Hutchison, Senator 
Nelson. Thank you for inviting me to speak with you today on 
the critical issue of the future of manned space flight, 
specifically the strategic environment of human space flight. I 
have worked on space policy issues for more than 20 years from 
many perspectives. And based on that experience, I feel that 
human space flight is not just something the United States 
should remain actively engaged in; it is an area strategically 
it must retain leadership in.
    In May 2003, there was a newspaper op-ed piece entitled, 
``Next Huge Space Shot, China.'' It began with the sentence, 
``Once upon a time, we ruled the universe. Now we're second-
raters in space.'' It concluded with the sentence, ``We have 
forfeited the last frontier.'' Convoluted interpretations of 
events and leaps of reasonings, like those expressed in that 
piece, unfortunately are not uncommon.
    Consequently, it is not really surprising that many people 
have concluded that with one 21-hour manned space flight, China 
has catapulted ahead of the United States in overall space 
capabilities, especially human space flight capabilities. While 
it is sadly true that the U.S. has not chosen to pursue human 
space exploration in a timely and concerted manner, as many 
people hoped it would, we are certainly by no means a second-
rate space power because it has pursued a different priority 
and slower pace. But there is perception.
    Human space flight, human space activity has always had a 
strong symbolic significance. Because of the early and 
spectacular U.S. successes in the manned space flight arena, 
winning the race to the Moon, the U.S. has heretofore been 
considered the unchallenged leader in human space activity. 
Unfortunately, again, that perception has been slipping.
    Now with the Chinese willing to play the tortoise to the 
U.S. hare, there is a very real chance that the U.S. will be 
outpaced by commitment demonstrated by consistency rather than 
speed or substance, creating the perception that the U.S. is 
forfeiting its leadership. There are many reasons this should 
not be allowed to happen. And I would be happy to go into them 
with you.
    But as the sole super power, the U.S. must lead the way to 
the future. How we lead the way is critical as well and I think 
offers the United States an opportunity to demonstrate 
inclusive leadership toward generating soft power critical to 
advance U.S. policies. The U.S. cinched leadership in human 
space flight early on. Now the strategic imperative is to 
maintain it.
    Senator Hutchison. Thank you very much.
    [The prepared statement of Dr. Johnson-Freese follows:]

Prepared Statement of Dr. Joan Johnson-Freese, Chairman, Department of 
              National Security Studies, Naval War College
    Last week, I challenged my class of 78 college students to, first, 
name three of the Apollo astronauts, then, three current astronauts. 
Some could name three Apollo astronauts, none could name three current 
astronauts, or even one. The Apollo program represents a glorious part 
of American history. Neil Armstrong stepping off planet Earth and onto 
another celestial body was both a shining moment for Americans, and a 
spiritual moment for all mankind. America held the attention and 
admiration of the world because it dared to venture into the Heavens. 
But too often America is a crisis-response society. Politically 
motivated to go to the Moon by the Soviet launch of Sputnik, in less 
than a decade the United States was successful beyond anyone's wildest 
imagination. Unfortunately, however, we did not choose to stay or to 
continue the journey. Instead, we came home and spaceflight has since 
been confined to the celestial driveway. Now, except for a few die-
hards, the American public shows more interest in its space museums 
than space exploration. But, I will suggest, allowing even the 
perception of U.S. leadership in human space to slip has negative 
strategic implications for the United States.
    Americans take great pride in space achievements. Even at the 
height of the Apollo era though, opinion polls showed that the public 
sees space exploration as a good thing to do, but expendable when 
prioritized against other demands for federal funding, like health 
care, education, schools and defense. Subsequently, the human space 
program has been struggling since Apollo to find a raison d'etre with 
both the public and politicians sufficient to carry human spaceflight 
out of the celestial driveway and into the street. The difference 
between Apollo and all subsequent human space visions has been the 
goals. Whereas Apollo had a strategic goal--``beat the Russians''--
programs since have had science and exploration as their goals and 
unfortunately, these goals have not proven sufficient to be competitive 
with other demands for federal funds.
    While many countries have shown interest over the years in 
developing autonomous human space programs, besides the United States 
only Russia and China, as of the October 2003 launch of the first 
Chinese taikonaut, have been successful. The Russian human space 
program was rescued from becoming moribund when it merged with NASA's 
human program to develop the International Space Station (ISS). Russia 
is still, however, unable to pursue new high-cost initiatives on its 
own, due to both economics and because they have learned that 
developing and maintaining support for a human space program is hard in 
democracies. While the European Space Agency (ESA) and countries like 
Japan and India likely have the technical wherewithal to have a 
successful human space program, they lack the requisite political will. 
In a Catch-22 scenario, however, having to always play a supporting 
role to the United States makes it even more difficult to garner public 
support and political will for human space activity. While Japan has 
long talked about a human space program, being responsible to an 
electorate, bureaucratic politics, economics and a cultural adversity 
to risk will likely keep them Earthbound. India too, as a democracy, 
remains constrained by public perceptions of priorities lying 
elsewhere. It is only because China's program is driven from the top 
that it has successfully been carried to fruition. So why is China, a 
country with 1.3 billion+ people, willing to devote significant 
resources to human spaceflight capability?
    The Apollo program demonstrated the benefits that accrue to a 
nation able to claim a human spaceflight capability. In the movie 
Apollo 13 Tom Hanks shows a Congressional delegation around Kennedy 
Space Center pointing out constituent jobs in high tech fields that 
were politically distributed to all fifty states. Jobs are always a 
valued program benefit. Americans expressed interest in science and 
technology education unmatched either before or after Apollo. 
Technology developed for space translated into economic development. 
Dual-use technology with both civil and military applications was 
developed. And finally, America enjoyed the prestige of ``winning'' the 
space race against the Soviet Union, which translated into a unifying 
pride during the contentious Vietnam War era, and also drew Third World 
countries to our side during the Cold War when East-West blocks 
competed for support.
    Those same benefits, jobs, education, economic development, dual-
use technology and prestige are still motivating factors for space 
activity. Since the 1950's, Europe has pursued space under the premise 
that space activity generated technology, technology generated 
industry, and industry led to economic development. China learned from 
the Apollo playbook as well. Training and employing workers in high-
technology aerospace jobs in China keeps large numbers of people 
employed, which is a Chinese priority. It also demonstrates to the 
world that China is able to, as one Chinese commentator put it, ``make 
more than shoes,'' thereby supporting their overarching economic 
development goal by attracting global industries to China. China is 
also experiencing growth in science and engineering education programs 
at unprecedented levels. China is clearly interested in modernizing its 
military, and, again learning from the U.S. playbook, China has seen 
the benefits space can yield in force enhancement capabilities. And 
finally, there is prestige. Prestige takes on two dimensions for China: 
first, domestically it bestows credibility on the Communist government 
much in the same way bringing the Olympics to Beijing does. In regional 
and international terms, prestige translates into techno-nationalism, 
where perceived technical prowess is equated to regional power. This is 
particularly important to China, which has been working hard and been 
largely successful at using economics and soft power to transform its 
regional image from that of the bully, to a rising power that countries 
can work with. For countries like Japan and India, these perceptions 
are important.
    Speculation about an Asian space race floats on the wind, but it is 
unlikely. After the Shenzhou V launch in October 2003, the Indian 
science community claimed it too could have accomplished such an 
achievement, but had simply chosen not to. That response was intended 
to quell concerns from both the Indian public and politicians about 
China's technical prowess compared to India's techno-nationalism. 
Initial Japanese responses to the launch varied. Space officials 
downplayed the technical significance of the event, while nonetheless 
congratulating China. A Japanese official spoke to the media directly 
in geostrategic terms. ``Japan is likely to be the one to take the 
severest blow from the Chinese success. A country capable of launching 
any time will have a large influence in terms of diplomacy at the 
United Nations and military affairs. Moves to buy products from a 
country succeeding in human space flight may occur.'' \1\ One woman on 
the street was quoted in Japanese media coverage as saying, ``It's 
unbelievable. Japan lost in this field.'' \2\ While Japan's ``losing'' 
to China through the Shenzhou V launch was more perception than 
reality, China's success juxtaposed against power failures on both the 
Japanese environmental satellite Midori-2 and on its first Mars probe, 
Nozomi, as well as the November 2003 launch failure of two Information 
Gathering Satellites (IGS), resulted in calls for a re-examination of 
the Japanese program. However, because of the problems initiating and 
sustaining human space programs in democracies, combined with unique 
internal politics in both countries, the initiation of an autonomous 
human program in either Japan or India is unlikely.
---------------------------------------------------------------------------
    \1\ ``China's launch of manned spacecraft welcomed in Japan,'' 
Japan Economic Newswire, 15 October 2003.
    \2\ ``China's launch of manned spacecraft welcomed in Japan,'' 
Japan Economic Newswire, 15 October 2003.
---------------------------------------------------------------------------
    With China's entry into the exclusive human spaceflight club, the 
strategic gameboard was put in motion. Whereas the United States has 
pursued a path of simultaneous cooperation and competition with other 
countries in various aspects of space, such as cooperating with Europe 
on ISS but competing in the commercial launch field, with China the 
U.S. approach has been purely competitive. China has been excluded from 
partnership on the International Space Station, for many years their 
``brass ring.'' The reasoning for the U.S. purely competitive approach 
has been technical and political: seeking to stop China from acquiring 
sensitive dual use technology, concern that China will be the next U.S. 
peer competitor, and not wanting to support the largest remaining 
Communist government in the world, especially one charged with human 
rights abuses and other practices averse to democratic principles. 
While such an approach may be virtuous, realities are such that it 
increasingly appears counterproductive.
    We have to face an uncomfortable fact here: a country whose 
interests may very well some day conflict with our own is going to 
pursue a line of technological development that could enhance its 
ability to challenge us through multiple venues. And they are going to 
be aided in this by other countries, whether we like it or not. While 
the U.S. seeks to contain China, much of the rest of the world is eager 
to work with China, thereby negating much of the impact the United 
States is trying to achieve, and indirectly encouraging activities not 
necessarily in the interest of the U.S. Other countries, allies, have 
often held passive-aggressive feelings toward space partnerships with 
the U.S.: welcoming and grateful for the opportunities, while resenting 
being inherently consigned to a supporting role, and feeling that U.S. 
partners are often treated more as secondary participants or sub-
contractors on projects. Working with China gives them a chance to 
level the playing field.
    There is a fairly widespread perception among the U.S. and 
international media, and a disconcerting number of the American public, 
that a human space race between China and the U.S. is either already 
underway or inevitable. China's one human launch into space clearly 
demonstrated the maturity of Chinese space engineering. Successfully 
launching a rocket is not, however, a scientific breakthrough--the 
know-how has been in textbooks for more than fifty years. It does 
demonstrate the careful attention to literally thousands of minute 
engineering details. But by no means has China leapfrogged over U.S. 
capabilities.
    China has ambitious human space goals, but a modest, incremental 
implementation plan. Officially, their current human program is a three 
part plan: man in space, a space laboratory, and a space station. 
Beyond that, their ambitions for the Moon and Mars are facing the same 
funding and political hurdles as NASA faces in the U.S. In a November 
21, 2004 press conference Ouyang Ziyuan, the lead scientist of their 
lunar program, talked about the costs and benefits of space, 
referencing the Apollo experience. \3\
---------------------------------------------------------------------------
    \3\ See: People's Daily Website.

        ``The lunar exploration project will spur high tech 
        development, and I cannot calculate how much return there will 
        be on that investment of 1.4 billion, but the Apollo project 
        spurred the scientific, technical, economic military and other 
        development of the 1960s, produced over 3,000 new technologies 
        of all types with applications useful in everyday life, and was 
        not only responsible for America's leading position in science 
        and technology, but it produced enormous political and economic 
---------------------------------------------------------------------------
        change.

        It is estimated that for every dollar invested there was an 
        economic return of 4-5 dollars. We learned a lot about the 
        Moon, the Earth, and the Sun that is impossible to calculate in 
        dollar terms. From ancient times to the present China has had 
        the legend of Chang E, and you could say that going to the Moon 
        started with China, but to today we have still not left the 
        Earth. The lunar exploration project will have an incalculably 
        valuable effect on the ethnic spirit and motivation (of the 
        Chinese people) and I ask you, how much is that worth?''

    While having to justify expenditures, the Chinese will continue 
their quest for space as long as sufficient domestic and geostrategic 
benefits accrue, and they will solicit international partners.
    China's human spaceflight program was largely indigenously 
developed, but based on proven designs adapted to make them their own. 
They have openly stated their appreciation for the work of the former 
Soviet Union toward making their own human spaceflight program a 
success. China understands the benefits, fiscal, technical and 
political, of cooperation. In the same November 21, 2004 press report, 
Ouyang Ziyuan spoke about cooperation. ``International cooperation (in 
space exploration) is a necessary development, no single country has 
the ability to complete (this undertaking) by itself. Landing on the 
Moon is an affair of the entire human race, and we should make our 
contribution on behalf of the Chinese race, fulfill the responsibility 
of the Chinese race. We want to learn together with others, not close 
ourselves off and go our own way.'' A pragmatic move for the Chinese, 
there were interested takers to invitations for cooperation.
    China has spent approximately $2.2 billion on its Shenzhou program, 
whereas NASA's annual budget is in excess of $16 billion. Shenzhou V 
was launched in 2003; Shenzhou VI will likely be launched in 2005. From 
the Chinese perspective, there was no need to go any sooner, as China 
has been able to enjoy its new found status as the third country 
capable of human spaceflight, while improving its technical 
capabilities, and keeping spending to a manageable level. Nevertheless, 
China's ability to successfully launch their first taikonaut while the 
U.S. Space Shuttle was grounded added to the perception of China's 
technical prowess compared to the U.S., not an inconsequential or 
unrewarding benefit for the Chinese. If the Shuttle is still not flying 
next Fall when the Chinese launch again, the Chinese will reap further 
prestige and publicity at the expense of the U.S. The U.S. has 
historically been the reigning human space champion, but there is 
always interest--and even tacit support--when a spoiler overtakes, or 
even appears to overtake, a champion. The U.S. appears in, and to some 
losing, a human space race, because the U.S. has been unable to set and 
implement a realistic way forward, and because of U.S. political 
reluctance to use cooperation, historically shown successful, to co-opt 
and shape the Chinese space program as we have other programs. The 
Chinese are playing Tortoise to the U.S. Hare.
    It has been suggested that engaging China in a space race would 
provide the political will for the U.S. human program to move forward, 
as the Soviet Union's activities did for Apollo, or that it would 
trigger a spending spree in China with effects similar to those 
experienced by the Soviet Union trying to keep up with SDI. Both are 
flawed analogies. During the Cold War, two competing superpowers 
started from the same point technologically and engaged in an 
engineering race. Both were motivated to compete. Now, the Chinese have 
no reason to ``race'' the United States. Chinese spending will not 
increase to keep up or outpace the United States either, as they fully 
understand it is impossible. China needs only to incrementally continue 
their human space program to create the perception that it is 
``beating'' the United States. China's activities place the U.S. in a 
race against itself, to maintain its leadership.
    Meanwhile, China will increasingly engage other countries in 
cooperative space activity. Technological containment of the U.S.S.R. 
took place in another time and under circumstances that are now 
impossible to replicate: there is no way to seal China off from the 
technologies it seeks. Our best hope, then, is to shape China's future 
in space, rather than watch it develop in 20 years--with assistance 
from others--into something that we will wish we could have diverted. 
China is already working with the European Space Agency on programs 
ranging from DoubleStar to Galileo, it worked with Russia on human 
spaceflight, and it is courting many Asian countries for projects 
involving cooperative work on environmental and disaster monitoring and 
management, sometimes through the Asia-Pacific Multilateral Cooperation 
in Space Organization (APSCO). That the EU considered dropping its arms 
embargo against China demonstrates that other countries do not 
necessarily share U.S. views about the value or necessity of isolating 
China. Over the long term, the reality is that China will increasingly 
engage partners in space activity. The question is whether the United 
States will choose to deflect or co-opt some of that cooperative 
activity in directions of our choosing?
    The United States has historically and successfully employed 
cooperative space activities to ``shape'' other countries' programs; 
guiding them into benign areas of interest and leaving them less funds 
to pursue activities less in our interest. Controlled or limited 
cooperation has also allowed the U.S. to get a much better idea of 
exactly what the priorities and capabilities are in other countries. 
Because China's program is still largely opaque, isolating it will only 
limit our ability to monitor what they are doing, and perhaps even more 
important, their long-term intent. Technology transfer remains a 
critical issue. Given that stopping technology transfer to China is 
impossible because the U.S. does not have a technology monopoly, 
managing it through transfers from the U.S., rather than having China 
obtain it from other countries with lesser controls, becomes a 
pragmatic option. Further, cooperation with China on space offers the 
U.S. leverage in Chinese space activities, gets the U.S. out of a 
counterproductive perception of a space race, and offers the U.S. the 
opportunity to develop soft power through a human space program with a 
goal beyond science and exploration--strategic leadership.
    Cooperation in space with China does not excuse the Communist 
regime from its commitment to Communism and its abysmal record on human 
rights. But indeed it is because China is an authoritarian state at the 
crossroads of its political development that it becomes imperative that 
America, as the world's leading democracy, step forward and help shape 
China's aspirations in space toward peaceful and cooperative ends 
rather than see them turned toward more threatening ideological or 
military goals. It should also be pointed out that attempting to draw 
linkages between space cooperation and other foreign policy goals, like 
human rights, is unlikely to be successful. The U.S. tried with the 
Soviet Union and only became frustrated. The U.S. can use space 
cooperation to co-opt, or shape, Chinese space activity. That is a 
worthy goal in itself.
    An inclusive cooperative human space program returns to the Apollo 
model, a program with a strategic goal, but this time based on 
cooperation rather than competition. Cooperation is not easy. But the 
ISS experience, and studies conducted by groups such as the American 
Institute of Aeronautics and Astronautics with long experience in 
cooperation models tells us there are ways to manage the issues. \4\ A 
first step in any model is to assure that all partners have a vested 
interest in success, all partners fully understand their roles, and 
that the science and engineering goals are meaningful. We know how to 
do it.
---------------------------------------------------------------------------
    \4\ See, for example, a recent AIAA paper by Peggy Finarelli and 
Ian Pryke, ``Optimizing Space Exploration through International 
Cooperation,'' and the full report of the 7th AIAA Workshop on 
International Space Cooperation, www.aiaa.org/IntlCoop.
---------------------------------------------------------------------------
    Imagine if you will a few alternative, hypothetical scenarios. If 
the United States were to finish the ISS only to then turn it over to 
the partners so the U.S. could pursue the Moon/ Mars vision, but then 
got mired down in technical or political difficulties, which would not 
be hard to imagine, the U.S. could end up the only space-faring nation 
not involved in ISS. If the U.S. pursues the Moon/Mars vision with the 
ISS partners, but not China; it is China (the developing country) 
versus the rest of the (developed) world, magnifying the perceived 
importance of each small advancement China makes and every misstep we 
make. If the U.S. pursues the Moon/Mars mission alone--other countries 
could see working with China as an opportunity to work on a human space 
program, and on a more level playing field, creating a U.S. versus 
China+ scenario. And finally, some have suggested that the U.S. simply 
forego human space activity.
    The U.S. must not, however, allow human space leadership to slip 
away. Human spaceflight requires pushing the envelop in areas of 
science and engineering--in medical fields and areas of life support 
systems engineering, for example--otherwise potentially neglected. 
While direct benefits to the economy or defense from a particular 
program may not always be identifiable in advance, GPS, once a 
government program without a clear mission, has certainly demonstrated 
that we should not be bound by the limits of our imagination. The 
importance that space provides to building science capabilities 
generally is not unnoticed elsewhere. China, for example, is acutely 
aware that it has a long way to go toward becoming a science ``power'' 
and it hopes human spaceflight will accelerate its movement up the 
learning curve. For the U.S. to maintain its leadership position, it is 
therefore imperative that the U.S. stays active in space as well. It is 
also important to remember that human spaceflight is part of the U.S. 
space agenda, not the entire agenda. We need to maintain a balance in 
the U.S. to assure continued preeminence in all aspects of science and 
engineering. And finally, space represents the future. It is imperative 
that the United States, as the world's leader, remain the world's 
leader into the future.
    Finally, I encourage this Committee to look into and plan for the 
future of human spaceflight from an ``effects-based'' perspective. What 
does the U.S. hope to achieve? Is the U.S. looking to maintain its 
preeminence in human spaceflight? I suggest we must. If that is the 
goal, realistically, we need a rationale beyond science and exploration 
to sustain the momentum. Competition once served that purpose but will 
not any longer. Indeed competition places the U.S. into a race not in 
its best interests. Strategic leadership of a cooperative space mission 
off planet Earth offers the U.S. a viable way forward toward 
maintaining U.S. leadership while generating significant soft power 
globally, soft power necessary toward such strategic goals as 
effectively fighting the Global War on Terrorism. I encourage this 
Committee to look at space from a strategic perspective, not just from 
a science or exploration perspective.

    Senator Hutchison. Dr. Scott Horowitz, Director of Space 
Transportation and Exploration at ATK Thiokol.

      STATEMENT OF DR. SCOTT J. HOROWITZ, DIRECTOR, SPACE 
       TRANSPORTATION AND EXPLORATION, ATK THIOKOL, INC.

    Dr. Horowitz. Thank you, Madame Chair and Senator Nelson. 
It is a great honor to be here today. And I appreciate the 
opportunity to discuss evolving Space Shuttle systems that will 
provide a safe, reliable, and a cost-effective method to ensure 
human access to space, along with heavy lift we are going to 
need to have to do space exploration and retire the Space 
Shuttle by 2010.
    It has been a great privilege and an honor to have served 
as an astronaut on four Space Shuttle missions. So I have seen 
rendezvous in space, the International Space Station, and the 
Hubble Telescope up close and personal. And we at ATK are very 
excited about the President's vision and support NASA's new 
administrator, Mike Griffin, in his efforts to make this vision 
a reality.
    I firmly believe that we can safely and affordably 
transition the Space Shuttle program to support exploration by 
leveraging our flight-proven and human-rated elements that 
exist today. NASA needs a safe, reliable, and affordable method 
of transporting crews to and from Earth orbit and heavy lift 
for cargo. That is the bottom line.
    And I believe it is tremendously important to learn lessons 
from the past and apply them to the future of human space 
flight. The Columbia Accident Investigation Board had 
concluded, and I quote, ``The design of the system should give 
overriding priority to crew safety, rather than trade safety 
against other performance criteria, such as low cost and 
reusability.'' And I totally agree with this conclusion.
    So there are two things we have to address, which is heavy 
lift and crew transport. Albert Einstein once said, ``Make 
everything as simple as possible, but not any simpler.'' So we 
have concepts for a simple, safe way evolving, for example, 
using the solid rocket booster and maybe a J-2S from the Apollo 
program or another engine to safely get the crew to and from 
orbit. In fact, a recent study has shown that this particular 
launch vehicle has a forecasted crew safety level of more than 
an order of magnitude safer than today's Shuttle.
    We also have tremendous capabilities that we can utilize to 
support our exploration vision. The propulsion system, for 
example, as has been said before, already today propels 240,000 
pounds to low Earth orbit. That is over 100 metric tons. So we 
have a tremendous capability today. One of the things that I do 
as I travel around the country sharing the adventures of flying 
in space, is I point out that it is not the thrust of the solid 
rocket motors and the Space Shuttle main engines that propel us 
to space, but it is the dedication, hard work, hopes and dreams 
of the many skilled and talented people that develop, 
manufacture, and prepare these systems that carry us to orbit.
    Transitioning this workforce to support exploration is 
going to be key to our success. In summary, we do have a safe 
and a simple solution that we can have soon. We owe it to our 
children and future generations to do so.
    Thank you very much for this opportunity. And I would be 
pleased to answer any questions you may have.
    Senator Hutchison. Yes. Thank you very much.
    [The prepared statement of Dr. Horowitz follows:]

     Prepared Statement of Dr. Scott J. Horowitz, Director, Space 
           Transportation and Exploration, ATK Thiokol, Inc.
    Madame Chair and Members of the Subcommittee, thank you for the 
invitation to appear before you. I appreciate the opportunity to 
discuss evolving the Space Shuttle systems, and in particular 
leveraging the hardware, infrastructure and people to minimize 
development schedules and to provide a safe, reliable, cost effective 
method to insure human access to space along with heavy lift for 
exploration when we retire the Space Shuttle in 2010.
    I have had the honor and privilege to serve our country as an Air 
Force F-15 fighter pilot, test pilot, and NASA astronaut on four Space 
Shuttle missions as a pilot and commander including a microgravity/
science mission, Hubble servicing mission, and two missions to the 
International Space Station. Upon retiring from NASA and the Air Force 
I joined the ATK Thiokol team as the Director of Space Transportation 
and Exploration. These experiences, coupled with a Ph.D. in Aerospace 
Engineering from Georgia Tech, have provided me with a unique 
perspective on what it takes for our team to conduct successful human 
space flight missions.
    We at ATK are excited about the President's Vision for Space 
Exploration and fully support NASA's new administrator, Mike Griffin, 
in his efforts to make this vision a reality. I firmly believe that we 
can safely and affordably transition the Space Shuttle program to 
support the Exploration program by leveraging the flight-proven and 
human-rated elements that exists today. This will enable us to retire 
the orbiter, and eliminate any gap in U.S. Human Space Flight 
capability. If we can start soon, we can fully meet the demanding needs 
of heavy lift and crew transportation more safely, more reliably, and 
more affordably than with any other option by the end of the decade.
    NASA's need for a safe, reliable, affordable method of transporting 
crews to and from Low Earth Orbit can be achieved as we move forward 
with exploration. But I believe it tremendously important to learn from 
the lessons of the past and apply them to the future of human space 
flight. The Columbia Accident Investigation Board concluded that ``The 
design of the system should give overriding priority to crew safety, 
rather than trade safety against other performance criteria, such as 
low cost and reusability, or against advanced space operation 
capability other than crew transfer.'' I totally agree with this 
conclusion. Additionally, in a memo dated May 4, 2004, the NASA 
astronaut office offered their consensus on the future by stating: 
``Although flying in space will always involve some measure of risk, it 
is our consensus that an order-of-magnitude reduction in the risk of 
loss of human life during ascent, is both achievable with current 
technology and consistent with NASA's focus on steadily improving 
reliability'' (Attachment 1: Astronaut Office Position on Future Launch 
System Safety, Memo, CB-04-044, May 4, 2004).
    The first step is to realize the tremendous capabilities that 
already exist and that can be utilized in the future to support our 
nations exploration vision. The Space Shuttle propulsion systems are 
the most reliable systems in the world. The Reusable Solid Rocket 
Motors used in the Space Shuttle launch phase have flown 226 times with 
significant engineering, inspection, and testing supporting well 
understood operational margins; the Space Shuttle Main Engines have 
flown 339 times and have over a million seconds of testing! These 
reliable and proven propulsion systems coupled with the External Tank 
constitute the Space Shuttle ``propulsive backbone'' and provide us an 
impressive capability to lift large payloads to Low Earth Orbit. Every 
time we launch a Space Shuttle we send about 240,000 pounds (over 100 
Metric Tons) to Low Earth Orbit! More importantly, we have the existing 
infrastructure and skills today to produce, launch, and operate this 
amazing hardware. As I travel around the country sharing the adventure 
of flying in space, I point out that it isn't the thrust of the Solid 
Rocket Motors and Space Shuttle Main Engines that propel us to space, 
but the dedication, hard work, hopes and dreams of the many skilled and 
talented people that develop, manufacture, and prepare these systems 
that carry us to orbit. Transitioning this workforce to support 
Exploration is key to our success.
    By evolving the shuttle's propulsive backbone to provide a heavy 
lift launch capability we can engage this talented, skilled workforce, 
and utilize our existing infrastructure. Because the orbiter vehicle 
sustaining, launch processing, and associated logistics drive the cost 
of the existing shuttle program, removing the orbiter will result in a 
significant reduction in cost. The propulsion elements of the Space 
Shuttle program only make up a fraction of the overall costs, making 
utilization of these systems extremely attractive for cost, safety, 
reliability, and sustainability. Not only is this launch system very 
affordable, it is the lowest cost in terms of dollars per pound to low 
earth orbit.
    Two primary options are being reviewed to provide heavy lift 
(greater than 150,000 pounds)--The first option replaces the orbiter 
vehicle with a side-mounted expendable cargo carrier utilizing the 
propulsion backbone and the same connections as the orbiter. This 
approach minimizes configuration changes while providing the capability 
to launch 170,000 to 200,000 lbs to LEO. A second option, providing 
capability up to 250,000 lbs to LEO, is to remove the orbiter, move the 
main engines below the External Tank, and add an optional second stage 
and cargo carrier to the top of the external tank. The modifications 
required for option 2 are more extensive than option 1 but option 2 has 
the added advantage of being able to provide larger and heavier 
payloads to Low Earth Orbit.
    Heavy lift capability in the ranges that I have mentioned is 
significant in that it offers the lowest risk and highest mission 
reliability, and ultimately the lowest cost for exploration missions. 
It would take 5 to 7 launches using smaller existing launch vehicles to 
accomplish what a single 170,000 to 250,000 pound launch vehicle can 
do.
    The cost of breaking the exploration missions into numerous smaller 
pieces to accommodate a smaller launch vehicle is cost prohibitive. 
Each smaller element will have to become a complete spacecraft on orbit 
while performing an automated rendezvous and docking and be burdened 
with all the systems required to survive and operate in space including 
power systems, thermal control systems, propulsion systems, guidance 
navigation and control systems, docking systems, etc. Then there is the 
cost of the infrastructure required to support the surge rates needed 
for multiple launches of smaller launch vehicles that would be required 
during a lunar or Mars campaign. This combined with all of the 
associated operational costs make the use of smaller launch vehicles 
for exploration missions cost prohibitive. Add to that the impact on 
mission reliability as a result of performing so many launches and 
associated on-orbit assembly operations and one quickly realizes that 
the chances of accomplishing multiple moon or Mars missions using 
smaller launch vehicles is slim to none.
    A heavy lift launch vehicle eliminates costly and complex in-space 
docking and on-orbit assembly and all of the associated supporting 
hardware, testing, checkout, and sustaining operations. Most 
significantly, a heavy lift launch vehicle simplifies the exploration 
architecture driving down costs for sustaining and logistics.
    In combination with the heavy lift launch capability, it is equally 
important to leverage existing human rated propulsion elements and 
focus on the safest way to put the crew in space. Utilizing a single 
Space Shuttle reusable solid rocket motor for the first stage of the 
crew launch vehicle is an ideal application of simplicity. The motor is 
already human rated and has an outstanding proven safety and 
reliability record. Add to this reusable first stage a previously 
developed human rated 2nd stage rocket engine, either a simplified 
version of the Apollo engine that took astronauts to the moon, the J-
2S, or a Space Shuttle main engine and you have a very simple, cost 
effective launch vehicle solution, built upon human rated heritage.
    Albert Einstein once said: ``make everything as simple as possible, 
but not any simpler''. The crew launch vehicle that I just described is 
the simplest launch vehicle that can deliver almost 50,000 pounds to 
Low Earth Orbit. This simplicity and use of highly reliable components 
results in the safest launch vehicle possible for transporting 
astronauts to space. In fact a recent reliability and crew safety 
assessment of the SRB/J-2S Launch Vehicle conducted by Science 
Applications International Corporation (Attachment 2: SAICNY05-04-1F, 1 
April 2005) concluded ``. . . the SRB/J-2S derived launch vehicle 
forecasted crew safety level, as measured in missions where the crew is 
lost in a total number of missions, is 1 in 3,145 . . .'' This is an 
order of magnitude better than today's capabilities. Another important 
feature of this design is that it has sufficient performance to fly 
trajectories to orbit that are compatible with a crew escape system. 
Other launch vehicles with insufficient thrust require the launch 
vehicle to fly higher, steeper, and longer, exposing the crew to 
extensive periods (up to three times longer) where a simple ballistic 
crew escape is not survivable.
    The other major benefit of this evolved approach is that because of 
its simplicity and reliance on already developed hardware, this launch 
vehicle can be available soon. In fact, a demonstration launch could be 
conducted in 2008 and be ready to fly the CEV about when the Shuttle is 
scheduled for retirement. We could also have the heavy lift version 
ready at about the same time, and by leveraging the resources of the 
current shuttle program we could save significant dollars. We have the 
talented workforce, facilities, and most of the major hardware 
components in hand. By evolving what we have and only developing new 
components where needed, we can drastically reduce the cost and 
schedule to provide the capabilities we need to safely transport 
astronauts to orbit and provide the heavy lift required to conduct 
space exploration.
    The approach that I have described also provides a means of safely 
transitioning from the current Space Shuttle System to the launch 
system required to support the Exploration Vision. The SRB/J-2S launch 
vehicle could easily be used to carry crew and cargo to the 
International Space Station, or be used as a highly reliable payload 
carrier to support U.S. assured access to space requirements.
    By leveraging the current Space Shuttle resources we have the 
ability to get astronauts to/from Low Earth Orbit, an order of 
magnitude safer than we do today, for a very affordable cost and on a 
schedule that avoids a ``gap'' in U.S. human space flight capability. 
We also have the propulsive backbone of the Space Shuttle System today 
that is proven and ready to provide a cost effective heavy lift 
capability needed to do exciting exploration of the moon and enable us 
to reach Mars and beyond. In summary we have a Safe, Simple solution 
that we can have Soon. We owe it to our children and future generations 
to do so.
    Thank you for the opportunity to share my thoughts with you, I will 
be pleased to respond to any questions that you may have.
Attachment 1
                       NASA, Lyndon B. Johnson Space Center
                                           Houston, TX, May 4, 2004
TO: CA/Director, Flight Crew Operations
FROM: CB/Chief, Astronaut Office
Re: CB-04-044, SUBJECT: Astronaut Office Position on Future 
                                       Launch System Safety

    The Columbia disaster has precipitated a thorough re-evaluation of 
all aspects of space flight. The accompanying paper presents the 
Astronaut Office position on launch vehicle safety for the next 
generation of human-rated spacecraft.
                                           Kent V. Rominger
  Enclosure: Astronaut Office Position on Future Launch System Safety
Executive Summary
    The Columbia accident, the selection of a booster for the Orbital 
Space Plane (OSP), and NASA's recently renewed interest in exploring 
beyond low Earth orbit have led the Astronaut Office to reexamine its 
views on launch system safety. Although flying in space will always 
involve some measure of risk, it is our consensus that an order-of-
magnitude reduction in the risk of loss of human life during ascent, 
compared to the Space Shuttle, is both achievable with current 
technology and consistent with NASA's focus on steadily improving 
rocket reliability, and should therefore represent a minimum safety 
benchmark for future systems. To reach that target, the Astronaut 
Office offers the following recommendations.
    The Astronaut Office recommends that the next human-rated launch 
system add abort or escape systems to a booster with ascent reliability 
at least as high as the Space Shuttle's, yielding a predicted 
probability of 0.999 or better for crew survival during ascent. The 
system should be designed to achieve or exceed its reliability 
requirement with 95 percent confidence.
    The Astronaut Office recommends that new human-rated launch vehicle 
programs follow guidelines, such as those given in the Columbia 
Accident Investigation Board (CAIB) Report and NASA's Human Rating 
Requirements (NPG 8705), for safety-conscious management, requirements 
definition, concept development, and design selection.
    The Astronaut Office recommends that NASA specify and maintain a 
set of formal, standardized, complete methods and processes to be used 
in predicting the reliability of human-rated spacecraft, and identify 
or create an independent body to verify those analyses.
    The Astronaut Office recommends that the test program for the next 
human-rated launch system demonstrate its reliability through vigorous 
ground and flight testing of components and systems. The value of each 
test should be leveraged by proving a safe envelope larger than that 
expected during operations and by using flight data to validate system 
reliability models. After completion of the formal test program, the 
vigilance applied during testing to data gathering, analysis, and 
flight constraints should continue to be applied during operations. 
Reliability should be continuously reassessed.
    The Astronaut Office believes that the next human-rated spacecraft 
must include a robust full-envelope abort or escape system. The safety 
of the overall system depends on the reliability of both the booster 
and the abort or escape system. As with the rocket itself, the abort or 
escape system reliability must be proven through flight testing.
I. Introduction
    Flying in space will always involve some measure of risk. 
Astronauts are willing to accept significant risks to further the cause 
of space exploration. Nevertheless, the Astronaut Office believes that 
future spacecraft can and should be much safer than present systems.
    The CAIB, in its 2003 report, advised NASA to adopt flight safety 
as its ``overriding priority.'' In hearings following the loss of 
Columbia, members of Congress agreed with that recommendation, 
emphasizing that improved safety is essential to maintaining NASA's 
credibility with both the public and Congress.
    Shortly after the Columbia accident, the OSP Program released its 
Level 1 Requirements and Operational Concepts. These stated in part 
that, ``The vehicle(s) shall initially launch on an [expendable launch 
vehicle] ELV,'' referring to the Atlas V and Delta IV ELVs. These 
rockets belong to a family of vehicles with a success rate of 0.975. 
Even with extensive modifications, they may never achieve a 
meaningfully higher success rate. \1\ For comparison, the success rate 
of the Space Shuttle if viewed solely as a launch vehicle is 0.991 (one 
ascent failure in 113 flights, counting the Columbia accident as an 
entry failure because it achieved a safe orbit after launch).
    Although history has shown that deadly accidents can occur during 
any phase of flight, ascent still poses a major risk to human life. If 
we wish to send explorers into space on increasingly ambitious 
missions, we must first solve the problem of putting humans into orbit 
more safely than is possible with our current launch systems.
    The Columbia accident, the selection of a booster for the OSP, and 
NASA's recently renewed interest in exploring beyond low Earth orbit 
have led the Astronaut Office to reexamine its views on launch system 
safety. Although flying in space will always involve some measure of 
risk, it is our consensus that an order-of-magnitude reduction in the 
risk of loss of human life during ascent, compared to the Space 
Shuttle, is both achievable with current technology and consistent with 
NASA's focus on steadily improving rocket reliability, and should 
therefore represent a minimum safety benchmark for future systems.
II. Flight Safety and Reliability
    Flight safety means protecting the lives of the crew as the top 
priority, above cost, manpower, reusability, adherence to schedule, and 
all other considerations, given that we are undertaking a dangerous 
mission and that our resources are finite.
    Flight safety is not just a philosophical viewpoint. It is also a 
measurable quantity: the reliability of the systems upon which the 
crew's safety depends. But according to reliability theory, \2\ it is 
not possible to measure a vehicle's reliability exactly. Instead, the 
probability of a safe flight must be estimated using mathematical 
models, flight history, or a combination of both.
    In this paper, we define ascent as the time from crew arrival at 
the launch pad until insertion into an orbit that is safe for at least 
24 hours, or, in cases where such an orbit is not reached, until crew 
recovery by rescue forces on Earth. We will use three statistical 
definitions of ascent reliability: predicted reliability, success rate, 
and demonstrated reliability.
    Predicted reliability is an estimate of reliability, made in the 
absence of sufficient flight data, through the use of probabilistic 
risk assessment or other trustworthy modeling techniques. Its accuracy 
is limited because it relies on an incomplete understanding of the 
machine and its environment and usually takes into account only known 
failure modes. As flight data becomes available, it can be included in 
the models to improve the accuracy of reliability predictions.
    A rocket's success rate is the number of times it has safely 
reached orbit, divided by the number of times it has been launched. For 
piloted missions, we count a flight reaching an incorrect but safe 
orbit as a success, since it does not threaten the lives of the crew 
even if the mission is lost. Success rate is not the same as 
reliability. But with enough launches the success rate will gradually 
become an accurate estimate of reliability.
    Demonstrated reliability is an estimate of reliability based on the 
success rate, with allowances for statistical uncertainty.
    Even a ``mature'' launch system with a long flight history has 
significant uncertainty in its reliability. To reflect that 
uncertainty, every reliability estimate must include a confidence 
level, which allows for the possibility that a rocket's modeled 
performance or existing safety record, because of analytical errors or 
random chance, does not reflect the truth. A standard confidence level 
is 95 percent, meaning that there is only a 5 percent chance that the 
system's real reliability is outside the bounds of the estimate. \3\ A 
lower confidence level means a greater probability that the actual 
value of reliability falls outside the range of the estimate. For 
rockets carrying people, where low reliability is of greatest concern, 
a reduced confidence level corresponds to a greater likelihood of 
unrecognized danger.
    Demonstrated reliability estimates at 95 percent confidence will be 
very low for new systems when the number of flights is small. This is 
because even an untrustworthy system can succeed a few times by random 
chance. It is just this kind of chance that the confidence level is 
intended to compensate for. (Confidence levels are less important if 
data from hundreds or thousands of flights is available to reduce the 
statistical uncertainty in the reliability estimate to an acceptably 
low value. Such a rich test history is characteristic of airplane 
programs, but not of launch systems in the past or near future.) Note 
that the Shuttle was declared ``operational'' at a time when its 
demonstrated reliability could only be said to be better than 0.473 
with 95 percent confidence.
    We now apply these concepts to the reliability of future human-
rated launch systems. As we discuss below, adding abort or escape 
systems to a booster with an ascent reliability at least as high as the 
Space Shuttle's could yield a future launch system with an order-of-
magnitude less ascent risk than the Shuttle. Such a system, which the 
Astronaut Office believes is feasible using present technology and 
production processes, would answer the call for meaningfully improved 
flight safety as called for by Congress, the CAIB, \4\ and the 
Astronaut Office. \5\ It is also consistent with the ascent risk 
requirement accepted by the former OSP Program. This new safety 
benchmark corresponds to a predicted probability of 0.999 or better for 
crew survival during ascent. If flown enough times, it should 
demonstrate the same reliability. To ensure that a new system achieves 
its safety requirement, it should be designed to meet or exceed that 
value with the standard 95 percent confidence.
    The Astronaut Office recommends that the next human-rated launch 
system add abort or escape systems to a booster with ascent reliability 
at least as high as the Space Shuttle's, yielding a predicted 
probability of 0.999 or better for crew survival during ascent. The 
system should be designed to achieve or exceed its reliability 
requirement with 95 percent confidence.
III. Managing and Designing for Flight Safety
    Designing significantly safer space vehicles requires adopting 
flight safety as the overarching figure of merit and implementing 
measures that have been shown to minimize risk, including those 
outlined in the CAIB Report. \4\ Practices of safety-conscious flight 
programs include the following: Systems should be assumed to be unsafe 
until proven otherwise. Waivers should not be accepted without rigorous 
technical justification. Expert advice from outside the organization 
should be sought and heeded to assess program management, vehicle 
design, construction, test, and operations. Safety must never be 
compromised by cost, schedule, or other considerations. The concepts of 
programmatic risk (to cost and schedule) and operational risk (to life 
and property) must be carefully separated.
    Requirements, especially safety requirements, for a human-rated 
launch vehicle must be specific, unambiguous, and verifiable. New 
programs must follow NASA's Human Rating Requirements (NPG 8705), 
protect those requirements from unnecessary ``tailoring,'' weakening, 
and abandonment, and ensure that they are met.
    Thorough, objective trade studies must be done to identify the 
design that best meets the requirements. Choices of technology and 
architecture should be guided by flight safety over cost, schedule, or 
any other priority.
    New programs should choose conservative, simple designs, which are 
usually safer. They should adopt proven design standards and analytical 
approaches. Designs should preserve healthy margins and factors of 
safety, and employ redundancy in critical systems. Human rating should 
be designed in, not appended on. Well-understood, high-quality, high-
reliability materials, components, and architectures should be 
selected. Hardware and software should be designed to degrade 
gracefully rather than fail catastrophically. The system must provide 
human insight into subsystems and allow human intervention during 
failures. Future improvements and supplementary backup systems must not 
be assumed to adequately substitute for a good basic design.
    The Astronaut Office recommends that new human-rated launch vehicle 
programs follow guidelines, such as those given in the CAIB Report and 
NASA's Human Rating Requirements (NPG 8705), for safety-conscious 
management, requirements definition, concept development, and design 
selection.
IV. Predicted Reliability of New Designs
    History has shown that rocket developers may exaggerate the merits 
of their systems. An early claim for the Space Shuttle's probability of 
crew survival was 0.99999, thousands of times safer than later 
demonstrated. \6\ Because safety is the most important consideration 
for human-rated space vehicles, predicted reliability must be 
quantitatively understood at all stages of design.
    A long record of successful flights is the best way to demonstrate 
flight safety. When a new system lacks enough flight history to support 
reliability claims, test results are the next best choice. During early 
development there is no hardware to test, so reliability must be 
predicted using state-of-the-art modeling techniques such as 
probabilistic risk assessment. Unfortunately, predicted reliability 
figures can be suspect, even if they are produced using modern, 
standardized techniques. The system developer owns the proprietary data 
upon which the models are based and these data are rarely shared for 
independent verification. Complex reliability models contain numerous 
parameters that are uncertain or subject to interpretation. (Models of 
this kind are notorious for being able to produce any answer the 
modeler wants to obtain.) Some reliability models treat only component 
failures, neglecting human errors in processing and operations. 
Finally, most reliability models treat only known modes of failure and 
may miss significant risks from unforeseen causes, especially 
unintended interactions between parts of a complex system (such as foam 
from the Shuttle's external tank striking the wing leading edge).
    Greater confidence in predicted reliability numbers can be realized 
in several ways. One is to specify standard modeling methods for 
producing them. Another is to validate them through independent third-
party verification using separately developed models. It may also be 
possible to truth-test reliability models against comparable existing 
systems with more precisely known reliability. Many models can be made 
more realistic by expanding them to include human errors in processing 
and operations as well as the possibility of unanticipated failure 
modes. Verification of this kind is difficult to obtain, but the 
powerful influence of model reliability estimates in determining the 
ultimate safety of the design (and hence the ultimate success of the 
program) demands thorough validation of the models and their results.
    The Astronaut Office recommends that NASA specify and maintain a 
set of formal, standardized, complete methods and processes to be used 
in predicting the reliability of human-rated spacecraft, and identify 
or create an independent body to verify those analyses.
V. Verifying Flight Safety Through Testing and Operations
    Once hardware is built, its reliability can be accurately assessed, 
first through testing and later during operations. Because testing will 
expose the vulnerabilities in a system more accurately and more 
realistically than analysis, vigorous testing to qualify all levels of 
the system, including individual and integrated components, on the 
ground and in flight is essential. Flight testing should progressively 
expand the envelope, following proven aviation practices. Test flights 
should identify the system's weakest parts and exercise them most 
strenuously. The flight test program must demonstrate that the system's 
reliability meets the requirements, either through the sheer number of 
tests, through proving a safe envelope much larger than expected during 
operations, through validation of system models, or through a 
combination of all three.
    The formal test program for a new commercial or military airplane 
involves hundreds of test flights. The large number of tests yields 
complete, precise understanding of the hardware and its performance. 
Such a comprehensive test program for a new spacecraft is likely to be 
prohibitively expensive. It is therefore expected that the next new 
human-rated spacecraft will be much less well understood than the next 
new military airplane when it goes into operation. Accordingly, even 
after completion of a formal test program, the spacecraft should still 
be operated as though it were an experimental vehicle. Operational 
practices associated with this paradigm include collection, archiving, 
and timely analysis of data on the health and performance of all 
systems. All anomalies should be recorded, tracked, and aggressively 
investigated. Unresolved anomalies should be considered constraints to 
flight. The system's reliability estimates and their underlying models 
must be continuously refined to reflect the vehicle's actual 
performance. An ancillary advantage of such an operational paradigm is 
that it will formally identify and capture ideas that will be useful in 
further improving the safety of current and future launch vehicles.
    The Astronaut Office recommends that the test program for the next 
human-rated launch system demonstrate its reliability through vigorous 
ground and flight testing of components and systems. The value of each 
test should be leveraged by proving a safe envelope larger than that 
expected during operations and by using flight data to validate system 
reliability models. After completion of the formal test program, the 
vigilance applied during testing to data gathering, analysis, and 
flight constraints should continue to be applied during operations. 
Reliability should be continuously reassessed.
VI. Improving Ascent Safety with Abort and Escape Systems
    The current benchmark for ascent reliability is the Space Shuttle's 
success rate of 0.991. Existing commercial rockets have lower success 
rates. \1\ Given the low reliability of even the safest existing 
rockets, meeting the Astronaut Office's goal of an order-of-magnitude 
reduction in the risk of space flight will require making the risk of 
losing the crew much smaller than the risk of losing the booster. This 
can be achieved by adding abort and escape systems. The ``Astronaut 
Office Position on Crew Survivability During Ascent and Entry'' \5\ 
defines an ``abort'' as a failure case where the crew stays in the part 
of the spacecraft normally designed to carry them during entry, as with 
an Apollo-style tractor rocket. ``Escape'' means that the crew leaves 
the crew compartment after the failure, as with an escape pod, ejection 
seats, or bailout capability. A successful abort or escape is one in 
which the crew survives abort or escape initiation, separation from the 
booster, descent and landing, awaiting rescue forces, and being 
securely recovered by those forces. All elements involved in abort or 
escape flight, landing, post-landing survival, and rescue efforts are 
considered part of the abort or escape system. Portions of the flight 
trajectory where abort and escape are impossible are called ``black 
zones.'' Because the overall safety of the system depends so strongly 
on the abort or escape system, black zones greatly increase overall 
flight risk. They should therefore be minimized to the fullest extent 
possible. The safest design will include a ``full envelope'' abort or 
escape system, which provides the crew with a secondary way to survive 
vehicle failures at all points in the flight profile.
    Abort and escape systems must operate very quickly and precisely, 
may need to withstand the detonation of hundreds of tons of explosive 
propellants in close proximity, must perform across a wide and never 
fully understood range of conditions, and may drop the crew compartment 
onto inhospitable locations on the Earth's surface where the crew might 
wait days to be rescued. The reliability of an abort or escape system 
must include its ability to save the crew from all credible failures at 
all times during ascent, and its ability to protect them after 
separation from the rocket until recovery by rescue forces.
    Abort and escape systems can never be perfectly reliable. 
Historically, about 13 percent of rocket accidents have involved 
catastrophic stack failures occurring with so little warning that 
notional abort or escape systems likely could not have saved a crew on 
board. \1\ Considering the challenges of separation alone, abort or 
escape system reliability figures higher than about 0.87 may be 
difficult to achieve without specifically designing the booster to fail 
only in benign ways. Even if separation from the failing booster is 
successful, abort descents, landings, and rescue scenarios are more 
difficult to survive than their nominal counterparts, implying an 
overall abort or escape system reliability even lower than 0.87. 
Because of the abort or escape system's vital role in protecting the 
lives of the crew, its reliability estimates must be comprehensive and 
realistic during the design phase, and supported by rigorous flight-
testing after hardware exists.
    The table below shows how the rate of fatal accidents depends on 
the reliabilities of the booster and the abort or escape system. To 
clearly illustrate the effect of both parameters, we convert ordinary 
reliability figures (e.g., 0.999) to expected numbers of fatal 
accidents per 1,000 launches. Presented in this format, the Space 
Shuttle's 0.991 ascent success rate becomes 9 fatal accidents per 1,000 
launches, and the Astronaut Office safety target of 0.999 is one fatal 
accident per 1,000 launches. In the table, green denotes combinations 
of booster and abort system reliabilities that meet that target. 
Systems with two or fewer fatal accidents per 1,000 launches are shown 
in yellow.
    Table 1. Fatal ascent accidents per 1,000 launches, for different 
values of booster and abort or escape system reliability.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The table shows that if the abort or escape system has a 
reliability of 0.900 (chosen as a reasonable upper limit, following the 
discussion above and presuming a booster designed not to fail 
catastrophically, so that the abort or escape system reliability can 
exceed 0.87), the Astronaut Office safety target of 1 fatal accident 
per 1,000 launches can be reached only by selecting a booster with a 
reliability of 0.990 or better. Existing commercial rockets have 
demonstrated reliabilities near 0.950 with 95 percent confidence. \1\ 
The Space Shuttle, if viewed solely as a launch vehicle, has a high 
success rate of 0.991, but applying the standard 95 percent confidence 
level puts its demonstrated reliability near 0.960. A new booster 
design that avoids complex, fragile, and unproven technologies and 
architectures while embracing the more extensive testing, design 
margins, process control, instrumentation, operator intervention, and 
fault tolerance characteristic of current human-rated flight hardware 
might achieve or exceed 0.990 reliability with high confidence.
    The Astronaut Office believes that the next human-rated spacecraft 
must include a robust full-envelope abort or escape system. The safety 
of the overall system depends on the reliability of both the booster 
and the abort or escape system. As with the rocket itself, the abort or 
escape system reliability must be proven through flight testing.
VII. Launching Humans on Atlas V and Delta IV Boosters
    The possibility of using the current Atlas V and Delta IV rockets 
to launch a new, piloted spacecraft has led the Astronaut Office to 
look closely at the crew safety implications of this option.

  <bullet> According to the OSP-ELV Human Flight Safety Certification 
        Study Team Report, \1\ the Atlas V and Delta IV rockets do not 
        meet many of the NASA safety standards specified or referenced 
        in NPG 8705, the Human Rating Requirements. Major changes 
        needed to bring the vehicles into compliance would include at 
        least: adding failure tolerance for critical systems, 
        redesigning for greater structural safety factors (human-rated 
        spacecraft use 1.4; Atlas V and Delta IV rockets use 1.25), 
        adding fault detection and isolation functions, making the 
        range destruct philosophy compatible with maximum crew 
        survivability, wiring for insight and intervention by the crew 
        and ground control, performing the detailed risk analyses 
        needed for human rating, supplementing process controls in all 
        phases of production, and flight testing to human rating 
        standards.

  <bullet> The Atlas V and Delta IV boosters were built to be cost-
        effective for their manufacturers, insurers, and customers, 
        considering the value of the non-human payloads they were 
        designed to carry. Although cost-effectiveness includes 
        reliability considerations, safety is not the prime driver for 
        satellite launches. The expense of human rating these existing 
        rockets by adding design margins, redundancy, instrumentation, 
        process control, command capability, and testing, might make 
        them uneconomical for their original mission and could 
        potentially be as costly as building a new human-rated booster.

  <bullet> The reliability of Atlas V and Delta IV rockets is not 
        precisely known because they are too new. Given insufficient 
        flight data, one method for predicting reliability is to assume 
        that a new system is about as reliable as a similar, existing 
        system. The OSP-ELV Human Flight Safety Certification Study 
        Team \1\ used the flight record of Atlas, Delta, and Titan 
        rockets developed under U.S. Government contracts and launched 
        since 1990 to predict the reliability of the Atlas V and Delta 
        IV. These rockets have been launched 236 times and reached safe 
        orbits 230 times. The resulting reliability estimate is 0.950 
        or better with 95 percent confidence. The boosters' potentially 
        low reliability would place excessive burden on abort 
        mechanisms to save the crew. The abort or escape system would 
        need a reliability near 0.980 for the complete launch system to 
        meet the Astronaut Office crew survivability target. Proposed 
        abort and escape systems were judged to be incapable of 
        rescuing the crew from stack detonations occurring with little 
        or no warning. \1\ These failures occur often enough to prevent 
        even a high-reliability abort or escape system from meeting its 
        safety requirement. \1\

  <bullet> Atlas V and Delta IV boosters fly to orbit on highly lofted 
        trajectories because of second-stage performance limitations 
        and range destruct line-of-sight requirements. If a piloted 
        spacecraft had to abort near the apex of such a trajectory, it 
        would hit the atmosphere at a high speed and a steep angle. The 
        resulting heat and acceleration loads on the crew compartment 
        would be severe and possibly not survivable. \7\

    In summary, the Atlas V and Delta IV rockets should be measured 
against a set of concrete, specific, verifiable requirements for 
carrying humans before being selected for that purpose. A safer launch 
option might be identified by objectively comparing the advantages and 
drawbacks of a range of existing, modified, and new launch systems 
relative to those requirements.
VIII. Summary and Conclusion
    If we wish to send explorers into space on increasingly ambitious 
missions, we must first solve the problem of getting humans into orbit 
more safely than is possible with our current launch systems.
    The Astronaut Office believes that an order-of-magnitude reduction 
in the risk of loss of human life during ascent, compared to the Space 
Shuttle, is both achievable with current technology and consistent with 
NASA's focus on steadily improving rocket reliability, and should 
therefore represent a minimum safety benchmark for future systems. This 
corresponds to a predicted ascent reliability of at least 0.999. To 
ensure that a new system will achieve or surpass its safety 
requirement, it should be designed and tested to do so with a 
statistical confidence level of 95 percent.
    Tough safety requirements can be met in part by adopting the best 
practices for the management, design, test, and operation of risky 
technology as given in the CAIB Report, in NASA's Human Rating 
Requirements (NPG 8705), and in commercial and military aviation.
    The burden of proving that a vehicle is safe falls on the 
mathematical models, tests, and operational history that measure the 
system's reliability. Accordingly, the Astronaut Office recommends that 
NASA specify and maintain a set of formal, standardized methods and 
processes to be used in predicting the reliability of human-rated 
spacecraft, and identify or create an independent body to verify those 
analyses. We further recommend that the test program for the next 
human-rated launch system demonstrate its reliability through vigorous 
ground and flight testing of components and systems. The value of each 
test should be leveraged by proving a safe envelope larger than that 
expected during operations and by using flight data to validate system 
reliability models. After completion of the formal test program, the 
vigilance applied during testing to data gathering, analysis, and 
flight constraints should continue to be applied during operations. 
Reliability should be continuously reassessed.
    The Astronaut Office believes that the next human-rated spacecraft 
must include a robust full-envelope abort or escape system. The 
reliability of both the rocket and the abort or escape system are 
limited and must be proven through flight-testing.
    It is our hope that NASA will adopt the principles outlined in this 
paper to design, build, test, and fly a new vehicle that is much safer 
than its existing counterparts. Such a vehicle will help ensure that 
our nation retains the capability for human access to space.
                              References:
    \1\ OSP-ELV Human Flight Safety Certification Study Team Report 
(2004).
    \2\ Trochim, W., The Research Methods Knowledge Base, 2nd Edition. 
Atomic Dog Publishing, Cincinnati, 2000.
    \3\ Taylor, J.R., An Introduction to Error Analysis: The Study of 
Uncertainties in Physical Measurements, University Science Books, Mill 
Valley, California, 1982.
    \4\ Gehman, H.W. et al. Columbia Accident Investigation Board 
Report, 2003.
    \5\ Astronaut Office Position on Crew Survivability During Ascent 
and Entry. Astronaut Office memo number CB 03-070, 2003.
    \6\ Feynman, R.P., Personal observations on the reliability of the 
Shuttle. Report of the Presidential Commission on the Space Shuttle 
Challenger Accident, Volume II, Appendix F, 1986.
    \7\ Orbital Space Plane RAC 2.02a Final Report (2003).
                              Attachment 2
    Executive Summary from SAICNY05-04-1F, ``Reliability and Crew 
Safety Assessment for Solid Rocket Booster/J-2S Based Launch Vehicle,'' 
Joseph R. Fragola, Blake Putney, Joseph Minarick III, Joseph D. Baum, 
Benjamin Franzini, Orlando Soto, Rainald Lohner, Eric Mestreau, Richard 
Ferricane, 1 April 2005.
    NASA's Exploration Mission Directorate is currently developing 
plans to carry out the President's Vision for Space Exploration. This 
plan includes retiring the Space Shuttle by 2010 and developing the 
Crew Exploration Vehicle (CEV) to transport astronauts to/from Low 
Earth Orbit (LEO). There are several alternatives to launch the CEV, 
including Evolved Expendable Launch Vehicles (EELVs) and launch 
vehicles derived from new and existing propulsion elements. In May 
2003, the astronaut office made clear its position on the need and 
feasibility of improving crew safety for future NASA manned missions 
indicating their ``consensus that an order of magnitude reduction in 
the risk of human life during ascent, compared to the Space Shuttle, is 
both achievable with current technology and consistent with NASA's 
focus on steadily improving rocket reliability.'' The astronaut office 
set a goal for the Probability of Loss of Crew (PLOC) to be better than 
1 in 1,000. Thus, the challenge becomes finding a launch vehicle that 
meets the CEV launch performance requirements while satisfying the 
astronaut office crew survivability requirement.
    The simplest designs of the EELVs, which offer the greatest 
potential for inherent reliability, are the single core variants. These 
single core EELVs with an effective crew escape system should provide 
the greatest crew safety. Unfortunately, the single core EELVs are 
unable to meet the performance needs for the CEV mission, so the higher 
performance, more complex, less reliable multi-core ``heavy'' variants 
are required making it difficult to achieve the ascent risk goal 
proposed by the astronaut office for PLOC to be better than 1 in 1,000. 
This dilemma motivated the search for a launch vehicle that could 
preserve the simplicity of a single core propulsion system that 
utilizes highly reliable human rated heritage components with 
sufficient performance to meet the CEV mission needs. The result of 
this effort is a 2-stage launch vehicle utilizing a single Space 
Shuttle Solid Rocket Booster (SRB) for the first stage, and a single J-
2S engine for the second stage.
    In order to effectively evaluate the reliability and human rating 
aspects of all of the various launch vehicle alternatives, a 13 step 
``top-down scenario based risk assessment'' methodology was developed. 
This approach is based on a phenomenological and engineering based 
analysis, which is subsequently used to guide a thorough Probabilistic 
Risk Assessment (PRA). This report documents the results of an 
evaluation conducted by SAIC on the SRB/J-2S based launch vehicle 
concept for launching the CEV based on this methodology.
    The SAIC evaluation has determined that the SRB/J-2S derived launch 
vehicle forecasted crew safety level, as measured in missions where the 
crew is lost in a total number of missions, is 1 in 3,145 at the mean 
of the estimated uncertainty distribution with associated uncertainty 
bounds of 1 in 11,500 at the 5th percentile, 1 in 1,287 at the 95th 
percentile, and 1 in 3,861 at the median or 50th percentile. This 
forecast is based on the conservative assumption that all catastrophic 
failures of the Space Shuttle SRB are non survivable which analysis 
indicates is not the case.
    The SRB/J-2S derived launch vehicle is forecasted to achieve this 
significant crew safety performance due to the following features:

        1. Simple Inherently Safe Design--A single human-rated SRB 
        first stage matured through years of experience with over 176 
        flights of the current design for launching crew, combined with 
        a simple J-2S single engine upper stage evolved from the highly 
        successful J-2 engine system used on both the second and third 
        stages of the Saturn V. These stages have been combined in an 
        inline configuration with the suggested Apollo Command Module 
        based CEV and Launch Escape System (LES) so as to benefit from 
        the natural safety distance advantages and broad escape 
        corridors provided inherently by the inline design.

        2. Design Robustness--Historical test results and 1st 
        principles physics based simulation show that the SRB/J-2S 
        launch vehicle design is robust, that is, resistant to crew 
        adverse catastrophic failure, even for the most severe failure 
        modes.

        3. Historically Low Rates of Failure--In the Space Shuttle 
        system only the 51-L event (a non-catastrophic failure of the 
        SRB) has marred a perfect record in 226 SRBs, with 176 
        consecutive successful uses of the redesigned SRBs. This 1 in 
        226 history, or 0.996 launch success rate is perhaps the best 
        of the best in launcher history. The J-2S, which completed 273 
        test firings and accumulated 30,858 seconds of run time, was 
        developed to be simpler to produce and operate than the J-2 
        engine system which it derives its heritage. The flight proven 
        J-2 engine had a significant success record, including a 
        flawless performance from a crew safety perspective.

        4. Non-Catastrophic Failure Mode Propensity--Solid rocket 
        booster history, and specific design features of the SRB 
        suggest a propensity for gradual thrust augmentation failures 
        which present less of a challenge for crew survival in the 
        inline configuration, should they occur.

        5. Process Control--The proposed design offers the benefits of 
        using propulsion suppliers with mature in-plant process control 
        systems to minimize human error, which has proven to be a 
        significant contributor to risk.

        6. Failure Precursor Identification and Correction--The design 
        capitalizes on the significant failure precursor identification 
        and elimination benefit from recovery, and post flight 
        inspection of the recovered SRBs.

    It is a combination of these six factors, and not any one alone, 
which suggest a launch vehicle design that is forecasted to produce the 
significant crew safety performance as assessed by this analysis.

    Senator Hutchison. And Mr. Allen Li is Director of 
Acquisition and Sourcing Management of the U.S. Government 
Accountability Office, GAO.

         STATEMENT OF ALLEN LI, DIRECTOR, ACQUISITION 
           AND SOURCING MANAGEMENT, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Li. Madame Chairman, Senator Nelson, Members of the 
Subcommittee. As requested, I will focus my brief remarks on 
whether NASA is positioning itself to have people with the 
proper skills to maintain and operate the Shuttle safely until 
the very last flight. And building on Senator Hutchison's 
remarks on lessons learned, I will also offer some observations 
on NASA's plans to develop a new manned spacecraft.
    Over the last 2 years NASA and its contractors have worked 
diligently to return the Shuttle to flight. Understandably, 
focus has been on STS-114. However, as we approach the day when 
Discovery does return to space, as we all hope it will, NASA 
will need to pay more attention to activities aimed an ensuring 
that its Shuttle workforce has the critical skills needed until 
the Shuttle is retired. It is this workforce that is enabling 
NASA to soon achieve Return to Flight. It is also the workforce 
that will allow NASA to finish the Space Station.
    In summary, we found in our March 2005 report that NASA had 
made limited progress in planning efforts for sustaining the 
Shuttle workforce through the program's retirement. The Shuttle 
program has taken preliminary steps, including identifying 
lessons learned from the retirement of comparable programs, 
such as the Air Force's Titan 4 rocket program. And NASA's 
prime contractor for Shuttle operations, United Space Alliance, 
has also taken some initial steps to prepare for the impact of 
the Shuttle's retirement on its own workforce.
    However, USA's progress depends on NASA's decisions that 
affect contractor requirements through the remainder of the 
program. So in essence, it is waiting on NASA.
    In our report we identified several factors that have 
hampered the Shuttle program's planning efforts. For example, 
because of the program's near-term focus on returning the 
Shuttle to flight, other efforts that will ultimately aid in 
determining workforce requirements have been delayed. In 
addition, program officials indicated they faced uncertainties 
regarding the implementation of future aspects of the 
President's vision for space exploration.
    I will end my remarks with two observations on current 
plans to develop the Crew Exploration Vehicle, otherwise known 
as the CEV. When the Shuttle was initially designed, ease and 
maintainability was not a major factor. But it should have 
been. A few years ago, I appeared before this Subcommittee when 
it reviewed the reasons behind wiring failures in the Orbiter. 
As it turns out, some wires, which are bundled, cracked from 
maintenance personnel repeatedly stepping on them to access 
other parts of the Orbiter. So it seems appropriate for NASA to 
remember this lesson and that future reusable spacecraft be 
designed with maintenance in mind.
    Furthermore, even if the spacecraft is not totally 
reusable, producibility will be a factor to consider. This is 
important if the CEV is to be the building block for the future 
and is produced in different forms over 20 years. It would 
appear that NASA would have much to gain by insisting on 
designs that can be efficiently produced and thus reduce long-
term costs.
    This ends my verbal statement.
    Senator Hutchison. Thank you very much.
    [The prepared statement of Mr. Li follows:]
  Prepared Statement of Allen Li, Director, Acquisition and Sourcing 
           Management, U.S. Government Accountability Office
    Madam Chairman and Members of the Subcommittee:
    I am pleased to be here today to discuss how the National 
Aeronautics and Space Administration (NASA) is positioning itself to 
sustain the critically skilled Space Shuttle workforce through the 
retirement of the Space Shuttle program. NASA is in the midst of one of 
the most challenging periods in its history. It must demonstrate that 
the Space Shuttle can safely fly again, begin the process of retiring 
its largest program, and at the same time prepare for the uncertain 
future of space exploration. These challenges are further exacerbated 
by the complex task of maintaining the right workforce to support the 
Space Shuttle program while ensuring that the skills needed for future 
programs are not lost. Over the next several years, thousands of NASA 
civil service and contractor employees who support the Space Shuttle 
program will be impacted by decisions made about the remaining life of 
the program and implementation of exploration goals. These include 
decisions about the final number of Space Shuttle flights and about 
future programs, such as the Crew Exploration Vehicle (CEV). As 
requested, my testimony today will discuss the actions that NASA is 
taking to position itself to sustain its critically skilled Space 
Shuttle workforce and the challenges that the agency faces in doing 
so--issues we reported on to Senators Inouye and McCain in March 2005. 
\1\
---------------------------------------------------------------------------
    \1\ GAO, Space Shuttle: Actions Needed to Better Position NASA to 
Sustain Its Workforce through Retirement, GAO-05-230 (Washington, DC: 
March 9, 2005).
---------------------------------------------------------------------------
    In summary, we found that NASA had made limited progress in its 
planning efforts for sustaining the Space Shuttle workforce through the 
program's retirement. At the time of our March 2005 report, the Space 
Shuttle program had taken preliminary steps, including identifying the 
lessons learned from the retirement of comparable programs, such as the 
Air Force Titan IV Rocket Program. Further NASA's prime contractor for 
Space Shuttle operations--United Space Alliance (USA)--had taken some 
initial steps to prepare for the impact of the Space Shuttle's 
retirement on its own workforce. However, its progress depends on NASA 
making decisions that impact contractor requirements through the 
remainder of the program. Timely action to address workforce issues, 
however, is critical given the potential impact that they could have on 
NASA-wide goals. Unaddressed, such issues would likely lead to schedule 
delays and overstretched funding for both the Space Shuttle program and 
the agency. Both NASA and USA have acknowledged that sustaining their 
workforces will be difficult as the Space Shuttle nears retirement, 
particularly if a career path beyond the Space Shuttle's retirement is 
not apparent to their employees. In addition, the Federal Government is 
facing fiscal challenges. Such challenges call into question whether 
funding for tools, such as retention bonuses, will be available for the 
agency to use to aid in retaining the Space Shuttle workforce.
    In our report we identified several factors that have hampered the 
Space Shuttle program's planning efforts. For example, because of the 
program's near-term focus on returning the Space Shuttle to flight, 
other efforts that will ultimately aid in determining workforce 
requirements, such as assessing hardware and facility needs, are being 
delayed. In addition, program officials indicated that they face 
uncertainties regarding the implementation of future aspects of the 
President's vision for space exploration (Vision) and have yet to 
define requirements on which workforce planning efforts would be based. 
Despite these factors, our prior work on strategic workforce planning 
has shown that, even when faced with uncertainty, successful 
organizations take steps, such as scenario planning, to better position 
themselves to meet future workforce requirements.
    In our March 2005 report, we recommended that the agency begin 
identifying the Space Shuttle program's future workforce needs based 
upon various future scenarios the program could face. The program can 
use the information provided by scenario planning to develop strategies 
for meeting the needs of its potential future scenarios. NASA concurred 
with our recommendation, and NASA's Assistant Associate Administrator 
for the Space Shuttle program is leading an effort to address the 
recommendation. Since we issued our report and made our recommendation, 
NASA has taken action and publicly recognized, through its Integrated 
Space Operations Summit, that human capital management and critical 
skills retention will be a major challenge for the agency as it 
progresses toward retirement of the Space Shuttle.
Background
    On January 14, 2004, the President articulated a new vision for 
space exploration for NASA. Part of the Vision includes the goal of 
retiring the Space Shuttle following completion of the International 
Space Station (ISS), planned for the end of the decade. In addition, 
NASA plans to begin developing a new manned exploration vehicle, or 
CEV, to replace the Space Shuttle and return humans to the moon as 
early as 2015, but no later than 2020, in preparation for more 
ambitious future missions. As this Subcommittee is aware, NASA's 
Administrator has recently expressed his desire to accelerate the CEV 
development to eliminate the gap between the end of the Space Shuttle 
program, currently scheduled for 2010, and the first manned operational 
flight of the CEV, currently scheduled for 2014. If the CEV development 
cannot be accelerated, NASA will not be able to launch astronauts into 
space for several years and will likely have to rely on Russia for 
transportation to and from the ISS. A 1996 ``Balance Agreement'' 
between NASA and the Russian space agency, obligated Russia to provide 
11 Soyuz spacecraft for crew rotation of U.S. and Russia crews. After 
April 2006, this agreement will be fulfilled and Russia no longer must 
allocate any of the seats on its Soyuzes for U.S. astronauts. Russian 
officials have indicated that they will no longer provide crew return 
services to NASA at no cost at that time. However, NASA may face 
challenges to compensating Russia for seats on its Soyuzes after the 
agreement is fulfilled due to restrictions in the Iran Nonproliferation 
Act. \2\
---------------------------------------------------------------------------
    \2\ The Iran Nonproliferation Act (Pub. L. 106-178). The Iran 
Nonproliferation Act bans the United States from making extraordinary 
payments to Russia in connection with the International Space Station, 
unless the President determines, among other things, that Russia 
demonstrated a commitment to prevent the transfer to Iran of goods, 
services, and technology that could materially contribute to developing 
nuclear, biological, or chemical weapons, or of ballistic or cruise 
missile systems.
---------------------------------------------------------------------------
    The Space Shuttle, NASA's largest individual program, \3\ is an 
essential element of NASA's ability to implement the Vision because it 
is the only launch system presently capable of transporting the 
remaining components necessary to complete assembly of the ISS. NASA 
projects that it will need to conduct an estimated 28 flights over the 
next 5 to 6 years to complete assembly of and provide logistical 
support to the ISS. However, NASA is currently examining alternative 
ISS configurations to meet the goals of the Vision and satisfy NASA's 
international partners, while requiring as few Space Shuttle flights as 
possible to complete assembly.
---------------------------------------------------------------------------
    \3\ The Space Shuttle program accounted for 27 percent of NASA's 
Fiscal Year 2005 budget request.
---------------------------------------------------------------------------
    Prior to retiring the Space Shuttle, NASA will need to first return 
the Space Shuttle safely to flight \4\ and execute whatever number of 
remaining missions are needed to complete assembly of and provide 
support for the ISS. At the same time, NASA will begin the process of 
closing out or transitioning its Space Shuttle assets that are no 
longer needed to support the program--such as its workforce, hardware, 
and facilities--to other NASA programs. The process of closing out or 
transitioning the program's assets will extend well beyond the Space 
Shuttle's final flight (see fig. 1).
---------------------------------------------------------------------------
    \4\ To return the Space Shuttle to flight, NASA will conduct two 
flights, which are intended to test and evaluate new procedures for 
flight safety implemented as a result of the Space Shuttle Columbia 
accident. The planning window for the first flight is July 13 through 
July 31, 2005.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Retiring the Space Shuttle and, in the larger context, implementing 
the Vision, will require that the Space Shuttle program rely on its 
most important asset--its workforce. The Space Shuttle workforce 
consists of about 2,000 civil service \5\ and 15,600 contractor \6\ 
personnel, including a large number of engineers and scientists. While 
each of the NASA centers support the Space Shuttle program to some 
degree, the vast majority of this workforce is located at three of 
NASA's Space Operations Centers: Johnson Space Center, Kennedy Space 
Center, and Marshall Space Flight Center. Data provided by NASA shows 
that approximately one quarter of the workforce at its Space Operations 
centers is 51 years or older and about 33 percent will be eligible for 
retirement by Fiscal Year 2012. \7\
---------------------------------------------------------------------------
    \5\ Number is based on a full-time equivalent calculation. Full-
time equivalent is a measure of staff hours equal to those of an 
employee who works 40 hours per week in 1 year; therefore, the actual 
number of employees who work part-time or full-time on the Shuttle 
Program is greater than 2,000. The number was calculated by averaging 
the number of civil service employees over Fiscal Year 2004.
    \6\ The number was calculated by averaging the number of contractor 
employees over Fiscal Year 2004. This number includes data from NASA's 
prime contractor for Space Shuttle operations, United Space Alliance, 
and other NASA contractors. United Space Alliance, established in 1996 
as a joint venture between Lockheed Martin and Boeing to consolidate 
NASA's various Space Shuttle program contracts under a single entity, 
and its approximately 10,400 employees are responsible for conducting 
the Space Shuttle's ground and flight operations under the Space Flight 
Operations Contract. The remaining contractor personnel are associated 
with other Space Shuttle components, such as its propulsion systems.
    \7\ Data provided by NASA is as of September 30, 2004. GAO did not 
perform a reliability assessment of the data.
---------------------------------------------------------------------------
    The Space Shuttle workforce and NASA's human capital management 
have been the subject of many GAO \8\ and other reviews \9\ in the past 
that have highlighted various challenges to maintaining NASA's science 
and engineering workforce. In addition, over the past few years, GAO 
and others in the Federal Government have underscored the importance of 
human capital management and strategic workforce planning. \10\ In 
response to an increased governmentwide focus on strategic human 
capital management, NASA has taken several steps to improve its human 
capital management. These include steps such as devising an agencywide 
strategic human capital plan, developing workforce analysis tools to 
assist in identifying critical skills needs, and requesting and 
receiving additional human capital flexibilities. \11\
---------------------------------------------------------------------------
    \8\ GAO, Space Shuttle: Human Capital Challenges Require Management 
Attention, GAO/T-NSIAD-00-133 (Washington, DC: Mar. 22, 2000) and GAO, 
Space Shuttle: Human Capital and Safety Upgrade Challenges Require 
Continued Attention, GAO/NSIAD/GGD-00-186 (Washington, DC: August 15, 
2000).
    \9\ Columbia Accident Investigation Board, Report Volume I 
(Washington, DC: August 2003); Aerospace Safety Advisory Panel, Annual 
Report for 2001 (Washington, DC: March 2002); Behavioral Sciences 
Technology, Inc., Assessment and Plan for Organizational Culture Change 
at NASA (Ojai, California: March 15, 2004).
    \10\ GAO, High-Risk Series: An Update, GAO-01-263 (Washington, DC: 
January 2001); GAO, High-Risk Series: An Update, GAO-03-119 
(Washington, DC: January 2003); GAO, High-Risk Series: An Update, GAO-
05-207 (Washington, DC: January 2005); GAO, Performance Accountability 
Series--Major Management Challenges and Program Risks: A Governmentwide 
Perspective, GAO-01-241 (Washington, DC: January 2001); GAO, Major 
Management Challenges and Program Risks: A Governmentwide Perspective, 
GAO-03-95 (Washington, DC: January 2003); GAO, Major Management 
Challenges and Program Risks: National Aeronautics and Space 
Administration, GAO-01-258 (Washington, DC: January 2001); and GAO, 
Major Management Challenges and Program Risks: National Aeronautics and 
Space Administration, GAO-03-114 (Washington, DC: January 2003); GAO, 
Human Capital: Key Principles for Effective Strategic Workforce 
Planning, GAO-04-39 (Washington, DC: December 11, 2003); GAO, A Model 
of Strategic Human Capital Management, GAO-02-373SP (Washington, DC: 
March 15, 2002); and GAO, Human Capital: A Self-Assessment Checklist 
for Agency Leaders, GAO/OCG-00-14G (Washington, DC: September 1, 2000). 
See also www.gao.gov/pas/2005.
    \11\ Enacted in February 2004, the NASA Flexibility Act of 2004 
(Pub. L. 108-201) amends title 5, United States Code, by inserting a 
new chapter 98 in that title, which provides new authorities to NASA. 
On March 26, 2004, NASA submitted a written workforce plan for using 
its new authorities to Congress.
---------------------------------------------------------------------------
Progress Toward Developing a Strategy To Sustain the Space Shuttle 
        Workforce is Limited
    NASA has made only limited progress toward developing a detailed 
longterm strategy for sustaining its workforce through the Space 
Shuttle's retirement. While NASA recognizes the importance of having in 
place a strategy for sustaining a critically skilled workforce to 
support Space Shuttle operations, it has only taken preliminary steps 
to do so. For example, the program identified lessons-learned from the 
retirement of programs comparable to the Space Shuttle, such as the Air 
Force Titan IV Rocket Program. Among other things, the lessons learned 
reports highlight the practices used by other programs when making 
personnel decisions, such as the importance of developing transition 
strategies and early retention planning.
    Other efforts have been initiated or are planned; examples include 
the following:

  <bullet> contracted with the National Academy of Public 
        Administration to assist it in planning for the Space Shuttle's 
        retirement and transitioning to future programs; and

  <bullet> began devising an acquisition strategy for updating 
        propulsion system prime contracts at MSFC to take into account 
        the Vision's goal of retiring the Space Shuttle following 
        completion of the ISS.

    NASA's prime contractor for Space Shuttle operations, USA, has also 
taken some preliminary steps, but its progress with these efforts 
depends on NASA making decisions that impact contractor requirements 
through the remainder of the program. For example, USA has begun to 
define its critical skills needs to continue supporting the Space 
Shuttle program, devised a communication plan, contracted with a human 
capital consulting firm to conduct a comprehensive study of its 
workforce; and continued to monitor indicators of employee morale and 
workforce stability. Contractor officials said that further efforts to 
prepare for the Space Shuttle's retirement and its impact on their 
workforce are on hold until NASA first makes decisions that impact the 
Space Shuttle's remaining number of flights and thus the time frames 
for retiring the program and transitioning its assets.
The Potential Impact of Workforce Problems and Other Challenges the 
        Space Shuttle Program Faces Highlight the Need for Workforce 
        Planning
    Making progress toward developing a detailed strategy for 
sustaining a critically skilled Space Shuttle workforce through the 
program's retirement is important given the impact that workforce 
problems could have on NASA-wide goals. According to NASA officials, if 
the Space Shuttle program faces difficulties in sustaining the 
necessary workforce, NASA-wide goals, such as implementing the Vision 
and proceeding with space exploration activities, could be impacted. 
For example, workforce problems could lead to a delay in flight 
certification for the Space Shuttle, which could result in a delay to 
the program's overall flight schedule, thus compromising the goal of 
completing assembly of the ISS by 2010. In addition, officials said 
that space exploration activities could slip as much as 1 year for each 
year that the Space Shuttle's operations are extended because NASA's 
progress with these activities relies on funding and assets that are 
expected to be transferred from the Space Shuttle program to other NASA 
programs.
    NASA officials told us they expect to face various challenges in 
sustaining the critically skilled Space Shuttle workforce. These 
challenges include the following:

  <bullet> Retaining the current workforce. Because many in the current 
        workforce will want to participate in or will be needed to 
        support future phases of implementing the Vision, it may be 
        difficult to retain them in the Space Shuttle program. In 
        addition, it may be difficult to provide certain employees with 
        a transition path from the Space Shuttle program to future 
        programs following retirement.

  <bullet> Impact on the prime contractor for Space Shuttle operations. 
        Because USA was established specifically to perform ground and 
        flight operations for the Space Shuttle program, its future 
        following the Space Shuttle's retirement is uncertain. 
        Contractor officials stated that a lack of long-term job 
        security would cause difficulties in recruiting and retaining 
        employees to continue supporting the Space Shuttle as it nears 
        retirement. In addition, steps that the contractor may have to 
        take to retain its workforce, such as paying retention bonuses, 
        are likely to require funding above normal levels.

  <bullet> Governmentwide budgetary constraints. Throughout the process 
        of retiring the Space Shuttle, NASA, like other federal 
        agencies, will have to contend with urgent challenges facing 
        the federal budget that will put pressure on discretionary 
        spending--such as investments in space programs--and require 
        NASA to do more with fewer resources.

Several Factors Have Impeded Workforce Planning Efforts
    While the Space Shuttle program is still in the early stages of 
planning for the program's retirement, its development of a detailed 
long-term strategy to sustain its future workforce is being hampered by 
several factors:

  <bullet> Near-term focus on returning the Space Shuttle to flight. 
        Since the Space Shuttle Columbia accident, the program has been 
        focused on its near-term goal of returning the Space Shuttle 
        safely to flight. While this focus is understandable given the 
        importance of the Space Shuttle's role in completing assembly 
        of the ISS, it has led to the delay of efforts to determine 
        future workforce needs.

  <bullet> Uncertainties with respect to implementing the Vision. While 
        the Vision has provided the Space Shuttle program with the goal 
        of retiring the program by 2010 upon completion of the ISS, the 
        program lacks well-defined objectives or goals on which to base 
        its workforce planning efforts. For example, NASA has not yet 
        determined the final configuration of the ISS, the final number 
        of flights for the Space Shuttle, how ISS operations will be 
        supported after the Space Shuttle is retired, or the type of 
        vehicle that will be used for space exploration. These 
        determinations are important because they impact decisions 
        about the transition of Space Shuttle assets. Lacking this 
        information, NASA officials have said that their ability to 
        progress with detailed long-term workforce planning is limited.

Despite Uncertainties, NASA Could Follow a Strategic Human Capital 
        Management Approach
    Despite these uncertainties, the Space Shuttle program could follow 
a strategic human capital management approach to plan for sustaining 
its critically skilled workforce. Studies by several organizations, 
including GAO, have shown that successful organizations in both the 
public and private sectors follow a strategic human capital management 
approach, even when faced with an uncertain future environment.
    In our March 2005 report, we made recommendations aimed at better 
positioning NASA to sustain a critically skilled Space Shuttle 
workforce through retirement. In particular, we recommended that the 
agency begin identifying the Space Shuttle program's future workforce 
needs based upon various future scenarios the program could face. 
Scenario planning can allow the agency to progress with workforce 
planning, even when faced with uncertainties such as those surrounding 
the final number of Space Shuttle flights, the final configuration of 
the ISS and the vehicle that will be developed for exploration. The 
program can use the information provided by scenario planning to 
develop strategies for meeting the needs of its potential future 
scenarios. NASA concurred with our recommendation, and NASA's Assistant 
Associate Administrator for the Space Shuttle program is leading an 
effort to address the recommendation.
    Since we issued our report and made our recommendation, NASA has 
taken action and publicly recognized that human capital management and 
critical skills retention will be a major challenge for the agency as 
it moves toward retiring the Space Shuttle. This recognition was most 
apparent at NASA's Integrated Space Operations Summit held in March 
2005. As part of the Summit process, NASA instituted panel teams to 
examine the Space Shuttle program's mission execution and transition 
needs from various perspectives and make recommendations aimed at 
ensuring that the program will execute its remaining missions safely as 
it transitions to supporting emerging exploration mission needs. The 
reports that resulted from these examinations are closely linked by a 
common theme--the importance of human capital management and critical 
skills retention to ensure success. In their reports, the panel teams 
highlighted similar challenges to those that we highlighted in our 
report. The panels made various recommendations to the Space Flight 
Leadership Council on steps that the program should take now to address 
human capital concerns. These recommendations included developing and 
implementing a critical skills retention plan, developing a 
communication plan to ensure the workforce is informed, and developing 
a detailed budget that includes funding for human capital retention and 
reductions, as well as establishing an agencywide team to integrate 
human capital planning efforts.
Conclusions
    There is no question that NASA faces a challenging time ahead. Key 
decisions have to be made regarding final configuration and support of 
the ISS, the number of shuttle flights needed for those tasks, and the 
timing for development of future programs, such as the CEV--all in a 
constrained funding environment. In addition, any schedule slip in the 
completion of the construction of the ISS or in the CEV falling short 
of its accelerated initial availability (as soon as possible after 
Space Shuttle retirement) may extend the time the Space Shuttle is 
needed. But whatever decisions are made and courses of action taken, 
the need for sustaining a critically skilled workforce is paramount to 
the success of these programs. Despite a limited focus on human capital 
management in the past, NASA now acknowledges that it faces significant 
challenges in sustaining a critically skilled workforce and has taken 
steps to address these issues. We are encouraged by these actions and 
the fact that human capital management and critical skills retention 
was given such prominent attention throughout the recent Integrated 
Space Operations Summit process. The fact that our findings and 
conclusions were echoed by the panel teams established to support the 
Integrated Space Operations Summit is a persuasive reason for NASA 
leadership to begin addressing these human capital issues early and 
aggressively.
    Madam Chairman, this concludes my prepared statement. I would be 
pleased to respond to any questions that you or other Members of the 
Subcommittee may have.

    Senator Hutchison. Dr. Freese, I would like for you to go 
back and expand a little bit on the concerns that you have from 
a national security standpoint about the United States having 
the independent ability to launch and support humans in space.
    Dr. Johnson-Freese. Space has always had a very strong 
symbolic value. Today we term that techno-nationalism. That 
is--science and technology is an indicator of national power. 
And with space representing the future, any slippage in U.S. 
leadership in human spaceflight capability translates into a 
negative indicator of national power.
    Countries are acutely aware of that. And specifically, 
China is reaping great rewards in techno-nationalism right now 
from its very incremental and very spartan, but very ambitious, 
human spaceflight program. That creates a perception of 
competition, where the Chinese only have to be consistent and 
we have to--we are put in a position where we are racing 
against ourselves to out-do our past, our glorious space past. 
And I think this puts us in a very precarious position.
    Senator Hutchison. Is there anything quantifiable about 
what we would lose if we could not put humans into space within 
a 5-year period, other than perception of power loss?
    Dr. Johnson-Freese. Well, again, perception is soft power. 
And while that is very hard to quantify, it is very real. There 
are some fields, certainly there is medical research and there 
are certain fields, life support research, that have to do with 
human space flight which has technology benefits that we would 
lose in. But my work primarily focuses on the soft power 
issues, which I think are considerable.
    Senator Hutchison. Mr. Li, let me just ask you: What do you 
think are the highest risk workforce retention issues that you 
see as we get toward 2010, while also trying to get the Crew 
Return Vehicle online?
    Mr. Li. Thank you for that question. I think at issue here 
is if we do not have a plan that is fully understood by the 
workforce, they will migrate toward what is best for them. And 
that unknown may be not knowing what the program, future 
program, will be. And they might in essence leave the Shuttle 
workforce, which would be very bad, obviously in terms of 
safety.
    Senator Hutchison. Senator Nelson?
    Senator Nelson. Mr. McCulley, you are experiencing that 
right now, are you not, with some of your young engineers?
    Mr. McCulley. Yes, sir, I am. And one quick anecdotal 
story. I have a young man from Pennsylvania who came out of 
college and moved to Florida specifically to work on our 
nations space programs and in particular, human spaceflight 
programs. Last week in the cafeteria at the Kennedy Space 
Center he said, ``Mike, what about my future? I've got two 
children now and a wife. And there's jobs in Pennsylvania that 
I'm aware of. And I'm debating whether or not I should take 
it.'' And he is in a very serious internal debate with his 
family.
    Now I will tell you that at this point we have no problem 
at all in recruiting, which has been very, very pleasing, given 
the accident. We are having no problems at all getting good 
people. I do not think we will have any problem for the next 
year or two. But my folks are starting to think about, what do 
I do post-Shuttle until we get a more definition? And I applaud 
Dr. Griffin's efforts to get that definition sooner rather than 
later.
    Senator Nelson. Dr. Freese, in our world of politics 
perception is not only soft power, it is hard power. But thank 
you for telling us about what perception means to the world 
with regard to the United States space program. Taking that a 
step further, what happens to our perception if our partners, 
our international partners up there on the Space Station either 
are there because it has been completed or not there because it 
has not been completed, and it comes 2010 and there is no Space 
Shuttle to service and build the Space Station?
    Dr. Johnson-Freese. That is a scenario that I do not think 
would be in our best interest. I strongly believe we need to be 
co-opting others to work with us inclusively so that we can 
avoid a situation where the United States is the odd man out 
potentially on the Space Station. And that could occur.
    Senator Nelson. Dr. Horowitz, what are the advantages to 
using Space Shuttle-derived systems for helping implement this 
CEV?
    Dr. Horowitz. Thank you, Senator. Well, as everyone else, 
we are very concerned about the gap. And the best way to avoid 
the gap is to take the equipment that we already have at our 
disposal--I mean, we already have the solid rocket booster 
first stage of the vehicle that I described. It is already 
built and flying today. So we can minimize the amount of 
development time, and the cost. And then we can meet the 
ambitious schedule of having a Crew Exploration Vehicle ready 
to fly in 2010, because we have most of the propulsion 
components already. They are already human-rated. And it will 
be safer and more effective than anything else we could do.
    Senator Nelson. And of course, that will be something that 
NASA will be looking at----
    Dr. Horowitz. Yes, sir.
    Senator Nelson.--trying to make that decision, what is best 
safety-wise, as well as from a cost and timing schedule.
    Thank you, Madame Chairman. This has been an excellent, 
excellent hearing. And you have compressed it into 35 minutes. 
It is a record, Madame Chairman.
    Senator Hutchison. Well, thank you. It took the cooperation 
of everyone involved. And let me just make one last quick 
statement. And that is that I do believe that NASA is looking 
at and will be working with you, Mr. McCulley, to use many of 
the people who are also doing the Space Shuttle for the Crew 
Return Vehicle evolution. So I do not think the picture is 
totally bleak here. I think there will be a lot of overlap that 
will help to keep our best people. And I know that between you 
and Dr. Griffin and all of the people in your two organizations 
that you will work hard to coordinate that.
    I want to remind everyone that all the statements and 
additional materials from the witnesses will be made a part of 
the hearing record, and also any answers that you might have to 
questions that might not have been asked but will be submitted 
to you in writing by members will also be made a part of the 
record.
    Thank you for the cooperation on this very short time 
frame. We appreciate it. We have learned a lot in a short time, 
and we appreciate your cooperation.
    Thank you.
    [Whereupon, at 11:35 a.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    First, I would like to welcome Administrator Griffin back 
to the Commerce Committee. Last month, you came before us as 
the nominee to head NASA, and now you are back to have a 
discussion on one of your most difficult challenges, moving 
human spaceflight out of the Shuttle era.
    Of course before we do that, NASA needs to return the 
Shuttle safely to flight. You've done a lot of work since 
February 2003, and we will all be rooting for you in July. It 
is my hope that you've really started to fix what the Columbia 
Accident Investigation Board called the ``cultural problems.''
    Administrator Griffin, I commend you on delaying the next 
flight from May until July so that you could satisfy yourself 
of its safety.
    The Committee will also be watching closely as you continue 
to refine the plans for our next generation space 
transportation system. We all agree. A 4-year or longer gap in 
the United States' ability to fly humans into space is 
unacceptable. We need a safe, robust, capable crew exploration 
vehicle and the cargo and lift systems to support it. I hope 
that you will help us understand the tradeoffs that will need 
to be made to get that system sooner rather than later.
    Of course, as we look to the future, we cannot abandon the 
past. The Space Shuttle will need to meet an aggressive 
schedule over the next 5 years. We need to complete the Space 
Station and to use the lab we have built. We should not abandon 
the important science NASA does, whether it is the Hubble Space 
telescope, Earth science, or aeronautics. I look forward to 
working with you and the Members of the Committee to ensure 
NASA can keep reaching for the stars.

                                  <all>

</pre></body></html>
